Assessment of the Office of Investor
Education and Advocacy’s
Functions




                               September 30, 2011
                               Report No. 498
                                                  UNITED STATES

                                 SECURITIES AND EXCHANGE COMMISSION
                                             WASHINGTON, D.C.    20549


    O ... ... ICI! 0 ...
INSPECTOR GENERAL




                                          MEMORANDUM

                                               September 30, 2011

         To :              Lori J. Schock, Director, Office of Investor Education and
                            Advocacy (OlEA)

         From:             H. David Kotz, Inspector General, Office of Inspector General (OIGY$'
        Subject:           Assessment of the Office of Investor Education and Advocacy's Functions,
                            Report No. 498

        This memorandum transmits the U.S. Securities and Exchange Commission OIG's final
        report detailing the results of our audit of OlEA's functions. This audit was conducted
        as part of our continuous effort to assess management of the Commission's programs
        and operations, and as part of our audit plan.


        The final report contains 16 recommendations which if fully implemented will enhance
        OlEA's processes for providing assistance to investors. OlEA concurred with all the
        report's recommendations. Your written response to the draft report is included in
        AppendixV.


        Within the next 45 days, please provide the OIG with a written corrective action plan
        that is designed to address the report's recommendations. The corrective action plan
        should include information such as the responsible official/point of contact, timeframes
        for completing required actions, and milestones identifying how you will address the
        recommendations.


        Should you have any questions regarding this report, please do not hesitate to contact
        me. We appreciate the courtesy and cooperation that you and your staff extended to
        our auditor during this audit.




           Assessment of OIEA’s Functions                                               September 30, 2011
           Report No. 498
                                                            ii
Attachment

cc:     James R. Burns, Deputy Chief of Staff, Office of the Chairman
        Luis A. Aguilar, Commissioner
        Troy A. Paredes, Commissioner
        Elisse B. Walter, Commissioner
        Jeffery Heslop, Chief Operating Officer, Executive Director, Office of Chief
          of Operations
        Elizabeth M. Murphy, Director, Office of the Secretary
        Robert S. Khuzami, Director, Division of Enforcement
        Craig M. Lewis, Director, Division of Risk, Strategy, and Financial
          Innovation
        Mary S. Head, Deputy Director, Office of Investor Education and
            Advocacy
        Vincente L. Martinez, Assistant Director, Office of Market Intelligence,
          Division of Enforcement




Assessment of OIEA’s Functions                                      September 30, 2011
Report No. 498
                                          iii
Assessment of the Office of Investor
Education and Advocacy’s Functions

                                Executive Summary
Background. The Securities and Exchange Commission (SEC or the
Commission) receives investor inquiries and complaints from the general public.
The Office of Investor Education and Advocacy (OIEA) is responsible for
gathering, processing, and responding to inquiries and complaints from the
investing public. OIEA consists of four offices: the Office of Investor Assistance,
the Office of Investor Education, the Office of Chief Counsel, and the Office of
Policy.

The Office of Investor Assistance processes and responds to inquiries and
complaints from investors. It utilizes the Investor Response Information System
(IRIS) to track and maintain inquiries and complaints received from the investing
public. As noted in the Commission’s 2010 Performance and Accountability
Report, tens of thousands of investors each year contact the SEC with
investment-related complaints and questions, and OIEA staff “aims to close out
as many new investor assistance matters within seven and 30 business days.” 1
Staff in the Office of Investor Assistance consist of investor specialists and
attorneys who focus on inquiries and complaints involving legal matters. The
Office of Investor Assistance routinely works with other Commission divisions
and offices, broker-dealers, investment advisers, and companies to provide
answers to investors.

The Office of Investor Education produces educational material about investing
activities and holds events to educate the investing public. The Office of Chief
Counsel provides legal guidance to OIEA and is primarily responsible for
preparing investor alerts and bulletins. The Office of Policy participates in the
rulemaking process and, in an effort to promote the investor’s perspective,
reviews the Commission’s rules, concept releases, and studies that might affect
investors.

Objectives. As part of our annual audit plan, the Office of Inspector General
(OIG) conducted an audit of OIEA’s efficiency in assisting the investing public
and improving investor education. The purpose of the audit was to conduct an
assessment of OIEA’s functions.




1
 OIEA attempts to close 80 percent of complaints and inquiries within 7 days and 90 percent within 30 days.
SEC, 2010 Performance and Accountability Report, p. 66, http://www.sec.gov/about/secpar/secpar2010.pdf.
Assessment of OIEA’s Functions                                                        September 30, 2011
Report No. 498
                                                    iv
The specific audit objectives were to determine whether OIEA

    •   addresses investor inquiries accurately and timely,
    •   processes complaints from investors and/or refers them to other parties in
        a timely manner,
    •   properly utilizes information from previously received complaints,
    •   has a tracking system and standard operating procedures for investor
        inquiries and complaints that enable the office to address the inquiries and
        complaints in accordance with OIEA’s goal, and
    •   provides useful and relevant educational material and events to the
        investing public.

Where appropriate, we will also identify areas for improvement and best
practices.

Prior OIG Audit Reports. From 1990 through 2004, the OIG performed six
audits related to OIEA’s operations. 2 Although OIEA has implemented most of
the prior reports’ recommendations, we found two that have not been addressed.

The report released in 1994 recommended periodic review of the quality of
responses to letter and telephone complaints and to inquiries Commission-wide.
OIEA stated that this recommendation has not been fully addressed because
OIEA does not have the authority to monitor regional offices. OIEA added that
although it does not have the authority to monitor regional offices and it does not
directly monitor regional offices’ responses, it indirectly monitors them through its
review of responses to surveys sent to investors after they have received a
response to an inquiry or complaint. We also understand that there have been
times when the OIEA Assistant Director has been able to identify survey
comments related to a response prepared by a regional office and has called the
regional office to follow up.

The report released in 2000 recommended that OIEA develop and implement
uniform complaint and inquiry processing policies and procedures for OIEA and
the field offices and that it monitor information provided to investors for
compliance with OIEA policies and procedures. This recommendation has not
been addressed. According to OIEA management, it cannot monitor regional
activities because staff in regional offices report to regional directors, not to OIEA
management.

Results. We found that, based on the samples we reviewed, OIEA’s review
procedures have lengthened the response time for priority inquiries. OIEA’s goal

2
  Management of Investor Complaints, Report No. 135 (Mar. 29, 1990); Investor Complaints and Inquiries
Report No. 202 (Sept. 29, 1994); Oversight of Self-Regulatory Organization Arbitration, Report No. 289
(Aug. 24, 1999); Investor and Small Business Town Meetings, Report No. 303 (Nov. 18, 1999); Investor
Education and Assistance Program, Report No. 288 (Apr. 25, 2000); and Commission Responses to
Investor Inquiries, Report No. 373 (Mar. 29, 2004).
Assessment of OIEA’s Functions                                                          September 30, 2011
Report No. 498
                                                    v
is to close out investor inquiries and complaints within 7 and 30 business days.
Its specific performance targets, as stated in the SEC’s fiscal year 2010
performance and accountability report, are to close 80 percent of complaints and
inquiries within 7 days and 90 percent within 30 days. 3 In the sample we tested,
which covered the period from November 14, 2009, to March 31, 2011, 4 53
percent of congressional correspondence, 33 percent of Chairman’s
correspondence, and 22 percent of White House correspondence, excluding
repeat complaints, 5 were not closed out within 30 days. Only about 7 percent of
the nonpriority responses in our sample were not closed out within 30 days,
however. 6 Some staff members indicated that review by multiple layers of
management has caused response time for priority correspondence to be
prolonged. According to OIEA management, the multiple review process for
priority correspondence is consistent with OIEA’s focus on the quality of
responses rather than on simply closing inquiries. Additionally, OIEA
management stated that certain inquiries require extensive research and that it
was important for OIEA to do its best to assist investors.

During the audit, we also identified several errors in the processing and
categorizing of investor inquiries and complaints. In addition, a number of OIEA
staff indicated that they needed training on OIEA’s tracking system and on the
securities industry and new securities products to better serve investors. OIEA
management indicated that they believe staff have been offered many training
sessions on OIEA’s tracking system and the securities industry.

Additionally, we found that the automated bridge for transferring allegations of
wrongdoing from the OIEA tracking system to the Tips, Complaints, and
Referrals (TCR) system, which the Commission uses for enforcement and
examination purposes, has experienced problems with transmitting complete
information and transferring document attachments. We found two cases in
which the information in the field describing the investor’s allegation(s) in the
TCR system was incomplete because of a limit on the amount of text that could
be entered in that field. In addition, due to problems related to the automated
bridge, the Office of Market Intelligence (OMI), which is responsible for collecting,
analyzing, and monitoring complaints that the SEC receives, has expressed
concern that it may not receive complete information from OIEA. OIEA


3
  SEC, FY 2010 Performance and Accountability Report (Nov. 15, 2010), p. 66,
http://www.sec.gov/about/secpar/secpar2010.pdf. The Government Performance and Results Act requires
federal agencies to prepare annual performance plans and reports, and the performance and accountability
report fulfills the reporting component of this requirement See 31 U.S.C. § 1115.
4
  We did not review priority files prior to IRIS’s November 14, 2009, launch because we were informed that
OIEA’s previous tracking system could not produce a listing of Chairman’s, congressional, or White House
correspondence.
5
  OIEA often receives repeat inquiries from the same correspondent in different periods. These percentages
do not include the inquiries that took OIEA longer than 30 days due to repeat inquiries. Effective late April
2011, OIEA’s policy was to open a new file if OIEA receives a repeat inquiry after 90 days from the receipt of
the initial inquiry.
6
  The scope for our review of nonprioirty responses ranged from January 1, 2008 to March 31, 2011.
Assessment of OIEA’s Functions                                                            September 30, 2011
Report No. 498
                                                     vi
employees also expressed concerns about the time it takes to manually transfer
information to OMI if there is a problem with the automated bridge.

During our audit, we also found that investor specialists in regional offices do not
follow the same procedures used by OIEA investor specialists and provide
inconsistent responses to inquiries. OIEA stated that because investor
specialists in regional offices report to regional directors, it does not have the
authority to monitor their investor assistance and education activities.

Further, we found that while OIEA staff are required to ask investors who call
OIEA with an inquiry or complaint to take a survey at the end of the call, they are
not consistently doing so. Investors who submit an inquiry or complaint using the
SEC web form are supposed to receive a follow-up survey from OIEA, but only a
low percentage of these surveys are completed and returned to OIEA. We also
found that the survey sent to investors who use the web form contained
questions specifically geared to telephone inquiries.

We also found that information on the SEC website about how investors may
contact OIEA by telephone to make inquiries or complaints is not displayed
prominently or presented clearly. When we examined the SEC website,
www.sec.gov, we found that the home page contains no specific information
about how to contact OIEA by telephone to make inquiries or complaints.
Further, the SEC has two telephone numbers that lead callers to the same
recorded greeting and menu options. Additionally, Investor.gov, which was
established to support OIEA’s mission to educate investors, separate from the
SEC’s main website, does not show the SEC Toll-Free Investor Information
telephone number on the home page.

Finally, we found that there is lack of communication between Office of Investor
Assistance staff members and OIEA management. Many employees expressed
concerns about management’s lack of interest in addressing their suggestions on
OIEA’s procedures and requiring them to follow certain procedures that they
believe are rigid or inappropriate. OIEA management stated that it seeks
feedback from employees but that staff members are unwilling to communicate
with management. We also found that Office of Investor Assistance staff thought
it would be beneficial to have officewide meetings on a periodic basis so that they
would be informed about what other offices in OIEA do.

Summary of Recommendations. Based on the results of our audit, we
recommend the following:

    (1)     OIEA should evaluate its review process for responses to
            priority and other inquiries to determine whether bottlenecks or
            inefficiencies are present and whether opportunities to
            streamline the process and improve the timeliness of responses
            exist. Based on the results of the evaluation, OIEA should

Assessment of OIEA’s Functions                                      September 30, 2011
Report No. 498
                                         vii
            make any appropriate changes to management review
            responsibilities and revise its operating procedures accordingly.

    (2)     OIEA should enhance the training available to OIEA staff on
            IRIS and on processing investor inquiries and complaints. In
            particular, these enhancements should address areas where
            confusion or errors are common or persistent.

    (3)     OIEA should make additional training available to OIEA staff,
            including training provided by other divisions or offices within the
            SEC, on new and emerging topics in the securities industry to
            help ensure that information provided to investors is accurate
            and current. OIEA management should regularly solicit ideas
            for training topics from OIEA staff.

    (4)     OIEA should take measures to ensure that all staff, including
            staff with telephone duty responsibilities, have sufficient time to
            attend periodic training.

    (5)     OIEA, in coordination with the Office of Market Intelligence and
            the Division of Risk, Strategy, and Financial Innovation, should
            continue to enhance the bridge between OIEA’s IRIS and the
            Tips, Complaints, and Referrals system, particularly the
            functions for transferring attachments and for ensuring the
            complete transfer of information.

    (6)     OIEA should provide regional office investor specialists with
            ongoing training on investor assistance, including information on
            resources available on the SEC website, and on IRIS.

    (7)     OIEA should coordinate with regional offices to establish a
            system for communicating regularly to help ensure that investor
            specialists throughout the Commission are providing consistent
            assistance to investors and that OIEA is aware of significant
            issues in the regional offices.

    (8)     OIEA should continue to consult with regional offices to
            determine ways it could facilitate participation by the SEC in
            local events held to educate investors and ways to assist
            regional offices with other efforts related to educating investors.

    (9)     OIEA should issue periodic reminders to OIEA staff members
            that they are required to provide investors with the option to
            complete a survey after every call.



Assessment of OIEA’s Functions                                         September 30, 2011
Report No. 498
                                           viii
    (10) OIEA should revise the questions in its survey sent to investors
         who use the SEC’s web form for inquiries and complaints by
         deleting questions applicable only to telephone inquiries and
         complaints and adding questions specifically relevant to
         inquiries and complaints submitted through the web form.

    (11) OIEA, in coordination with the Office of the Secretary, should
         move the SEC’s Toll-Free Investor Information Service
         telephone number to a more prominent location on the SEC
         website, such as the home page.

    (12) OIEA should determine, in coordination with the Office of the
         Secretary, whether there should be one SEC information
         service telephone number instead of two on the “Useful SEC
         Contact Information” list on the SEC website.

    (13) OIEA should display the SEC Toll-Free Investor Information
         Service telephone number on the home page of Investor.gov for
         investors to make inquiries or complaints.

    (14) OIEA should communicate matters related to OIEA operations,
         such as personnel changes and initiatives by offices within
         OIEA, to staff members at least once a month through
         officewide e-mails or an officewide meeting and ensure
         appropriate and necessary communication between the different
         offices within OIEA.

    (15) OIEA should continue to seek feedback from staff members on
         new and revised policies and procedures and other matters that
         would affect the office and should provide adequate time for
         staff to review and respond to feedback requests.

    (16) OIEA should participate in team-building exercises that are
         available at the Commission to improve communications and
         relations between management and staff.




Assessment of OIEA’s Functions                                   September 30, 2011
Report No. 498
                                       ix
TABLE OF CONTENTS
Executive Summary ..................................................................................................... iv

Table of Contents ......................................................................................................... x

Background and Objectives .................................................................................. 1
     Background ....................................................................................................... 1
     Objectives .......................................................................................................... 3

Findings and Recommendations .......................................................................... 4
     Finding 1: Internal OIEA Processes Have Lengthened Response Time for
     Priority Inquiries and Complaints........................................................................ 4
                     Recommendation 1....................................................................... 8

         Finding 2: OIEA Staff Need Additional Training Opportunities and
         Sufficient Time to Attend Training ...................................................................... 9
                       Recommendation 2..................................................................... 11
                       Recommendation 3..................................................................... 12
                       Recommendation 4..................................................................... 12

         Finding 3: The Automated Bridge for Transferring Allegations of
         Wrongdoing From IRIS to TCR Has Experienced Problems With
         Transmitting Complete Information and Transferring Document
         Attachments ..................................................................................................... 12
                      Recommendation 5..................................................................... 16

         Finding 4: Investor Specialists in SEC Regional Offices Do Not Follow the
         Same Procedures Used by Investor Specialists at Headquarters and
         Provide Inconsistent Responses to Inquiries.................................................... 16
                       Recommendation 6..................................................................... 20
                       Recommendation 7..................................................................... 20
                       Recommendation 8..................................................................... 21

         Finding 5: OIEA Obtains Very Limited Qualitative Feedback on Its
         Performance From Investors ............................................................................ 21
                      Recommendation 9..................................................................... 24
                      Recommendation 10................................................................... 24

         Finding 6: Information on the SEC Website About How Investors May
         Contact the SEC by Telephone to Make Inquiries or Complaints Is Not
         Displayed Prominently or Presented Clearly .................................................... 24
                       Recommendation 11................................................................... 26
                       Recommendation 12................................................................... 26
                       Recommendation 13................................................................... 26

Assessment of OIEA’s Functions                                                                 September 30, 2011
Report No. 498
                                                          x
    Finding 7: Communication Between the Office of Investor Assistance Staff
    and Management and Between OIEA Offices Needs Improvement................. 27
                  Recommendation 14................................................................... 33
                  Recommendation 15................................................................... 33
                  Recommendation 16................................................................... 33
Appendices
    Appendix I: Abbreviations................................................................................ 34
    Appendix II: Scope and Methodology............................................................... 35
    Appendix III: Criteria ......................................................................................... 38
    Appendix IV: List of Recommendations ........................................................... 39
    Appendix V: Management Comments.............................................................. 42
    Appendix VI: OIG Response to Management’s Comments.............................. 49




Assessment of OIEA’s Functions                                                            September 30, 2011
Report No. 498
                                                      xi
                    Background and Objectives

Background
The Securities and Exchange Commission (SEC or the Commission) receives
investor inquiries and complaints from the general public. The Office of Investor
Education and Advocacy (OIEA) is responsible for gathering, processing, and
responding to inquiries and complaints from the investing public. OIEA consists
of four offices: the Office of Investor Assistance, the Office of Investor Education,
the Office of Chief Counsel, and the Office of Policy.

The Office of Investor Assistance serves investors by processing and responding
to inquiries and complaints. It utilizes the Investor Response Information System
(IRIS) to track and maintain inquiries and complaints received from the investing
public. As noted in the Commission’s 2010 Performance and Accountability
Report, tens of thousands of investors each year contact the SEC with
investment-related complaints and questions, and OIEA staff “aims to close out
as many new investor assistance matters within seven and 30 business days.” 7
Staff in the Office of Investor Assistance who serve the investing public consist of
investor specialists and attorneys who focus on inquiries and complaints
involving legal matters. The Office of Investor Assistance routinely works with
other Commission divisions and offices, broker-dealers, investment advisers, and
companies to provide answers to investors.

The Office of Investor Education produces educational material about investing
activities and holds events to educate the investing public.

The Office of Chief Counsel provides legal guidance to OIEA and is primarily
responsible for preparing investor alerts and bulletins, which are short articles
written to inform the investing public and others about a variety of subjects, such
as municipal securities, stock trading basics, day trading, margin rules, life
settlements, and new SEC rules. Investor alerts and bulletins may cover topical
issues, such as specific frauds, or they may be general education pieces. OIEA
also issues joint alerts with other agencies and organizations, such as the
Department of Labor and the Financial Industry Regulatory Authority (FINRA).
Investor alerts and bulletins are posted on the SEC website, SEC.gov, and on
Investor.gov.

The Office of Policy participates in the rulemaking process and, in an effort to
promote the investor’s perspective, reviews the Commission’s rules, concept
releases, and studies that might affect investors.


7
 OIEA attempts to close 80 percent of complaints and inquiries within 7 days and 90 percent within 30 days.
SEC, 2010 Performance and Accountability Report, p. 66, http://www.sec.gov/about/secpar/secpar2010.pdf.
Assessment of OIEA’s Functions                                                      September 30, 2011
Report No. 498
                                                Page 1
OIEA management informed us that it has taken the following measures to
improve OIEA’s operations:

   •   The OIEA tracking system for investor inquiries and complaints has
       been upgraded, which has led to significant improvement in
       correspondence tracking and reporting. OIEA maintains that this
       upgrade has also helped to address the frustration of staff in the
       Office of Investor Assistance with the previous system, which was
       fundamentally flawed and made processing correspondence
       difficult.

   •   The OIEA management team has been changed extensively—

       o The former Director was replaced with a Director who has
         significant experience in investor education and investor
         assistance.
       o A Deputy Director with substantive securities law expertise and
         extensive experience with senior SEC leadership was hired to
         help manage OIEA.
       o An Assistant Director, an attorney with securities law expertise
         and significant experience with senior SEC leadership, was
         hired to manage the Office of Investor Assistance.
       o A Chief Counsel and staff with substantive securities and
         administrative law expertise were hired to, among other things,
         review OIEA’s core content and create investor alerts and
         bulletins.
       o Two new Deputy Directors were hired—one to focus exclusively
         on education and one to assist OIEA with its new policy
         responsibilities.
       o A new Branch Chief was added.
       o Weekly or semi-weekly meetings between Office of Assistance
         staff and their direct managers were instituted.

   •   A third-party survey platform was acquired to gauge investor
       response to OIEA’s services.

   •   Standard operating procedures were drafted by the Office of
       Investor Assistance in May 2011. In the past, there were few
       formalized procedures and they were not aggregated or easy for
       staff to find.

OIG Survey. On June 16, 2011, with assistance from the Office of Information
Technology, the Office of Inspector General (OIG) released a survey that
contained questions about OIEA operations to OIEA staff members, excluding
management personnel. The survey addressed OIEA’s internal communication
process, the tracking system used to process investor inquiries and complaints,
Assessment of OIEA’s Functions                                  September 30, 2011
Report No. 498
                                     Page 2
the sufficiency of tools available to OIEA staff members, management of OIEA
personnel, and the usefulness and relevance of OIEA’s educational events and
material for the investing public. The survey consisted of 42 yes/no and multiple-
choice questions and an open-ended section in which respondents could provide
detailed feedback. Our purpose in administering the survey was to obtain OIEA
staff’s views on the performance of OIEA functions. Survey responses were
voluntary, and respondents were anonymous unless they elected to identify
themselves to us. We encouraged respondents to provide written comments,
where applicable, to support and explain their responses. By July 1, 2011, the
closing date of the survey, 29 of 35 OIEA staff members answered all the
questions in the survey, and the remaining 6 staff members answered some of
the questions. Many OIEA staff also provided numerous written comments in
response to this survey. In addition, 4 of the respondents asked to be contacted
for an interview to further discuss their views.

Objectives
As part of the OIG annual work plan, we conducted an audit of OIEA’s efficiency
in assisting the investing public and improving investor education. The purpose
of the audit was to conduct an assessment of OIEA’s functions. The specific
audit objectives were to determine whether OIEA

   •   addresses investor inquiries accurately and timely,
   •   processes complaints from investors and/or refers them to other
       parties in a timely manner,
   •   properly utilizes information from previously received complaints,
   •   has a tracking system and standard operating procedures for
       investor inquiries and complaints that enable the office to address
       the inquiries and complaints in accordance with OIEA’s goal, and
   •   provides useful and relevant educational material and events to the
       investing public.

Where appropriate, OIG will also identify areas of improvement and best
practices.




Assessment of OIEA’s Functions                                   September 30, 2011
Report No. 498
                                     Page 3
                 Findings and Recommendations

Finding 1: Internal OIEA Processes Have
Lengthened Response Time for Priority Inquiries
and Complaints
           OIEA’s review process for priority correspondence has
           resulted in delays in responding to such correspondence. In
           addition, some staff cited OIEA policy requiring that staff
           obtain permission from their branch chiefs before speaking
           with staff in other SEC divisions or offices as a source of
           inefficiency in responding to investor inquiries and
           complaints.

Procedures for Responding to Inquiries
OIEA categorizes investor inquiries and complaints as either priority or
nonpriority correspondence. Priority correspondence consists of allegations of
wrongdoing and also the following:

      •    Chairman’s correspondence, which is correspondence received by
           the Office of the Chairman and forwarded to OIEA for response.
           OIEA branch chiefs have responsibility for responding to all
           Chairman’s correspondence. Chairman’s correspondence is
           reviewed by a branch chief and the Assistant Director.

      •    Congressional correspondence, which is correspondence from
           members of Congress on behalf of their constituents. It is generally
           forwarded from the SEC’s Office of Legislative and
           Intergovernmental Affairs to OIEA for response. The Deputy
           Director of OIEA has responsibility for responding to all
           congressional correspondence. Congressional correspondence is
           reviewed by a branch chief and the Deputy Director.

      •    White House correspondence, which is correspondence sent by the
           Executive Office of the President to the Office of the Chairman.
           The Office of the Chairman refers the correspondence to OIEA.
           The Deputy Director of OIEA has responsibility for responding to all
           White House correspondence. White House correspondence is
           reviewed by a branch chief and the Deputy Director. 8

8
    OIEA, Standard Operating Procedures for the Investor Assistance Group, pp. 7, 33, and 35.
Assessment of OIEA’s Functions                                                       September 30, 2011
Report No. 498
                                                  Page 4
OIEA staff members respond to allegations of wrongdoing, and the responses
are reviewed by a branch chief. 9 All other correspondence is considered
nonpriority and not subject to supervisory review. If in responding to an inquiry—
priority or nonpriority—an OIEA staff member needs to contact another SEC
office or division, the staff member must first obtain permission to do so from his
or her branch chief. 10

Results of OIG Testing of Priority Files
OIEA’s goal is to close out investor inquiries and complaints within 7 and 30
business days. Its specific performance targets, as stated in the SEC’s fiscal
year 2010 performance and accountability report, are to close 80 percent of
complaints and inquiries within 7 days and 90 percent within 30 days. 11

We conducted testing to determine whether OIEA is meeting its timeliness goal
and found that a significant portion of the priority inquiries and complaints in our
sample were not closed within 30 days and that some additional inquiries and
complaints took more than 60 days to close. In the sample we tested, which
covered the period from November 14, 2009, to March 31, 2011, 12 53 percent of
congressional correspondence, 33 percent of Chairman’s correspondence, and
22 percent of White House correspondence, excluding repeat complaints, 13 were
not closed out within 30 days. Only about 7 percent of nonpriority responses in
the sample we tested were not closed out within 30 days, however. 14

Efficiency of Current Procedures
In our survey, we asked the following question: “Are there any tasks that you or
other OIEA employees perform that you believe are inefficient?” Approximately
63 percent of the respondents answered “yes.” We also asked, “Are there any
areas of improvement OIEA needs to consider to manage its personnel
resources?” Approximately 76 percent of respondents answered “yes” to that
question. The survey asked respondents who answered “yes” to provide
suggestions or additional detail.


9
  OIEA, Standard Operating Procedures for the Investor Assistance Group, p. 23.
10
   OIEA, Standard Operating Procedures for the Investor Assistance Group, p. 34.
11
   SEC, FY 2010 Performance and Accountability Report (Nov. 15, 2010), p. 66,
http://www.sec.gov/about/secpar/secpar2010.pdf. The Government Performance and Results Act requires
federal agencies to prepare annual performance plans and reports, and the performance and accountability
report fulfills the reporting component of this requirement See 31 U.S.C. § 1115.
12
   We did not review priority files prior to IRIS’s November 14, 2009, launch because we were informed that
OIEA’s previous tracking system could not produce a listing of Chairman’s, congressional, or White House
correspondence.
13
   OIEA often receives repeat inquiries from the same correspondent in different periods. These percentages
do not include the inquiries that took OIEA longer than 30 days due to repeat inquiries. Effective late April
2011, OIEA’s policy was to open a new file if OIEA receives a repeat inquiry after 90 days from the receipt of
the initial inquiry.
14
   The scope for our review of nonprioirty responses ranged from January 1, 2008 to March 31, 2011.
Assessment of OIEA’s Functions                                                        September 30, 2011
Report No. 498
                                                  Page 5
In their comments, a number of OIEA staff indicated that multiple layers of
management review for priority files interfered with efficiency. The comments
included the following:

     •   “[T]he approval process has gotten out of control. The majority of
         steps that we take in order to work a file require some form of
         approval. From removing an AWD [allegation of wrongdoing]
         designation, to requesting to make contact within or without the
         SEC, to approval of every response that is sent out, the amount of
         time it takes to close each file has been stretched beyond
         reasonableness.” 15

     •   “[G]et help for [management official] and policy review because the
         system is broken. By policy review, I mean in their review of
         [priority responses]. This would speed up the turnaround time. It is
         not efficient now. It is sad to say, but the average investor who
         calls or e-mails on a Wednesday gets their answer fast. If it is
         congressional, it might be three to four months later. The average
         investor gets faster responses than the other person with a priority
         matter.”

     •   “OIEA staff members get [responses] up and out in 24 hours per
         OIEA’s [standard operating procedures], then the responses sit in
         the policy and management queue for months. Not only that, but
         some [investor complaints about broker-dealers] are congressional
         [which] we send to the broker-dealer and write an interim response.
         . . . Plenty of times, I have sent [the response] to management for
         their review and it waits for approval and takes so long that broker-
         dealers have responded to investors and OIEA staff members
         before management reviews them. On one case, I alerted the
         management personnel that the broker-dealer already responded
         to the question and our response is ready for management review.
         A lot of times, the response is drafted and ready to be sent to
         investors, but just sitting there.”

An OIEA employee also informed us during an interview that “there are situations
where a congressional office will call because they have not heard from us. . . .”
In addition, during our audit we were told about a specific congressional inquiry
to which the broker-dealer responded before the SEC did. Our review of the
records related to this inquiry indicated that the delay in the SEC’s response to
the investor occurred because a senior management official was unable to
review the OIEA staff member’s response to the investor in a timely manner.
The SEC’s point of contact for congressional inquiries agrees that the approval

15
  OIEA management stated that management does not review every response prepared by staff members.
As we indicate in this report, OIEA management reviews responses to priority correspondence.
Assessment of OIEA’s Functions                                                September 30, 2011
Report No. 498
                                             Page 6
process should be expedited. As previously noted, the Deputy Director has
responsibility for reviewing all responses to congressional correspondence. We
were advised by the SEC point of contact for congressional inquiries that
although the manager responsible for reviewing congressional inquiries is “great
at providing me with final results,” OIEA needs another experienced person who
can review responses and provide a final recommendation and closure for
congressional inquiries in order to speed up responses to investors and
constituents.

Many of the staff who responded to our survey also commented about the
inefficiency of requiring staff to obtain supervisory approval before they could
contact another SEC office or division, as follows:

       •   “[I]n order to contact another office or division within the SEC, we
           must first seek approval from our Branch Chief by e-mail through
           the IRIS system. It is only after we receive the approval that we
           may then initiate contact. This can lead to a delay from 1 to several
           days. When added up to the many contacts each attorney and
           specialist receives, this causes a great deal of delay.”

       •   “Our management staff employed a policy where we are not
           allowed to contact other SEC staff members without their
           permission. This was a knee jerk reaction decision that has slowed
           production immensely. . . . Not being able to contact colleagues in
           a timely manner makes our job much harder and inefficient.
           Numerous employees voiced their concerns over this policy and
           were scoffed at. Management cited an employee who was not
           professional in a phone conversation with an employee from
           another division . . . [and] they implemented this across-the-board
           policy. In an effort to save face . . . and avoid actually being a
           manager, they create policies which make our job more difficult and
           inefficient.” 16

       •   “In order to communicate with other SEC offices in order to get
           assistance with an investor inquiry, we must first ask our supervisor
           for permission to contact the person and then wait for approval. . . .
           It is such a waste of time and inefficient use of my time and
           resources. I should be able to contact our liaisons in other offices
           directly without having to get permission from my supervisor and
           then wait sometime days for a response back from my supervisor
           with permission!”

       •   “I believe at times it would be more efficient if OIEA could
           communicate with other divisions and offices within the SEC

16
     OIEA management stated that OIEA policies are not based on one employee’s action.
Assessment of OIEA’s Functions                                                     September 30, 2011
Report No. 498
                                                 Page 7
       without needing to get supervisor approval for each contact to be
       made; this would be less time consuming and more efficient for the
       investor.”

According to OIEA management, the multiple review process for priority
correspondence is consistent with OIEA’s focus on the quality of responses
rather than on simply closing inquiries. Additionally, OIEA management stated
that certain inquiries require extensive research and that it was important for
OIEA to do its best to assist investors. OIEA management also said that delays
in responding to investors might have resulted from the implementation of IRIS,
OIEA’s new tracking system, in November 2009, and to an increase in investor
inquiries and complaints following the liquidations of Lehman Brothers, Inc.,
Bernard L. Madoff Investment Securities, LLC, and Stanford Group Company.

We asked the Deputy Director, who reviews all responses to congressional
correspondence, about the delays and concerns that we identified and whether
other management personnel could also perform the reviews. She said that
reviewing the responses was a way for her to be informed of the inquiries and
complaints received by OIEA. In addition, because of the significance of the
responses and the fact that they are congressional requests, she stated that she
believes that her review is necessary. She further indicated that she could not
always review the priority cases as timely as she would like and often reviews
them over the weekend.

   Recommendation 1:

   The Office of Investor Education and Advocacy (OIEA) should evaluate its
   review process for responses to priority and other inquiries to determine
   whether bottlenecks or inefficiencies are present and whether opportunities to
   streamline the process and improve the timeliness of responses exist. Based
   on the results of the evaluation, OIEA should make any appropriate changes
   to management review responsibilities and revise its operating procedures
   accordingly.

   Management Comments. OIEA concurred with this recommendation. See
   Appendix V for management’s full comments.

   OIG Analysis. We are pleased that OIEA concurred with this
   recommendation.




Assessment of OIEA’s Functions                                  September 30, 2011
Report No. 498
                                    Page 8
Finding 2: OIEA Staff Need Additional Training
Opportunities and Sufficient Time to Attend
Training
       Based on errors and delays that we found during our audit
       and in staff responses to our survey, we determined that
       OIEA staff could benefit from additional training related to
       IRIS, OIEA’s tracking system for inquiries and complaints.
       Numerous survey respondents also commented that in order
       to respond effectively to inquiries and complaints, they
       needed training to keep abreast of new developments and
       products in the securities industry but often lacked adequate
       time to participate in training.

Errors and Delays in Processing and Categorizing Complaints
and Inquiries
During the OIG audit, we identified several errors in the processing and
categorizing of investor inquiries and complaints. For example, we found that
OIEA did not respond to a complaint that involved a non-SEC matter in part
because, according to an OIEA branch chief, “the amount of time that has
elapsed since receipt of the letter mitigate[d] against responding at this late date.”
OIEA management agreed with our assessment that OIEA’s tardiness was not a
valid reason for not responding to an investor. We also found that it took OIEA
72 days to close this correspondence and that no closeout memorandum was
included in OIEA’s records. In addition, although this complaint was a
Chairman’s correspondence, which required review by the Assistant Director of
the Office of Investor Assistance, the file did not make it to the Assistant
Director’s review queue in IRIS. The Assistant Director informed the OIG that
this was a system issue that has been corrected.

We also found that eight files had been erroneously marked as White House
correspondence. OIEA management concurred that these files had been
improperly categorized.

Staff Unfamiliarity With Certain Capabilities of IRIS

In our survey, we asked OIEA staff the following question: “Do you believe you
have sufficient tools to perform your assigned duties?” Approximately 28 percent
of the respondents answered “no.” In the explanatory comments respondents
provided, one employee stated that IRIS was not efficient in meeting “our
complaint handling needs.”



Assessment of OIEA’s Functions                                      September 30, 2011
Report No. 498
                                       Page 9
We also asked staff, “Are there any areas IRIS could be improved?” More than
55 percent of respondents answered “yes.” Some staff indicated that a
significant deficiency in IRIS is that its search function generates too many
records. They said, for example, that it was difficult to search IRIS for previously
prepared and approved responses involving a particular broker-dealer that they
could use to respond to similar complaints about the same broker-dealer. An
OIEA staff member indicated that OIEA’s previous tracking system allowed staff
to perform a narrow search and that it was easy to find previously prepared
responses. Although IRIS has an advanced search function that allows users to
narrow their searches, we found that certain OIEA staff were unaware of or not
adequately trained on how to use the advanced search function.

Securities Industry Training
In response to our survey questions, a number of OIEA staff indicated that they
needed training on the securities industry and new securities products. Their
comments included the following:

       •   “[W]e don't receive nearly enough securities training to keep us
           on top of what's happening in the securities industry. Since the
           financial mess of 2008, the products in the industry have
           severely changed. We haven't received the proper training on
           these products such as CDOs, etc.”

       •   “I think more staff and definitely more training is needed on the
           assistance [side for] . . . OIEA [to] achieve its goal in assisting
           investors. The complaint side of OIEA has taken a [back seat]
           to the education side despite the fact there has been an
           unprecedented amount of fraud being committed over the past
           several years.”

       •   “The responses provided by the assistance staff are often
           incomplete or erroneous. There is a lack of training of the staff.
           Given the broadness of the questions asked, it is difficult to
           know the answers to many of the questions asked.”

       •   “Better training for the assistance staff is needed to ensure the
           consistency and quality of responses.”

       •   “The staff should have regular training in identifying red flags of
           investment fraud and also in understanding SEC rules,
           regulations, and filing requirements.”

OIEA management said that at its request, other divisions and offices, such as
the Division of Investment Management and the Office of Market Intelligence,

Assessment of OIEA’s Functions                                      September 30, 2011
Report No. 498
                                       Page 10
have provided training or spoken to OIEA employees about specific topics. They
further stated that numerous training sessions related to the securities industry
are offered periodically to OIEA staff. However, comments provided in response
to our survey indicate that some OIEA staff believe that they need training
beyond what is currently available.

Availability of Training Time for Office of Investor Assistance
Staff
During our audit, several OIEA staff members commented they did not have
sufficient time to attend training because of their job responsibilities, including
their telephone duty responsibilities. One commenter stated the following:

       •   “[T]raining is vital for us to keep abreast in the dynamic
           securities industry. Yet, it's so hard to go to training because of
           our phone duty responsibilities (now 9:00 a.m.–5:30 p.m.). You
           literally have to ask other OIEA Assistance staff to cover your
           phone duty time, which infringes on their work responsibilities.
           So it's becoming progressively harder to achieve. Shouldn't our
           OIEA staff, which acts as the front line of defense for the
           investors, receive the best securities-related training available to
           outsmart the fraudsters? We need more training to outsmart the
           fraudsters. Maybe management can turn off the phones for a
           day or so here and there to allow ALL OIEA Assistance staff to
           attend the same training which is available to all other SEC
           staff.”

OIEA management stated that with a few exceptions, investor assistance staff
members have telephone duty during either the morning or the afternoon, but not
for the entire day. According to OIEA management, only three individuals have
telephone duty for a full day, and each of these individuals has full-day duty only
once during each two-week pay period.

   Recommendation 2:

   The Office of Investor Education and Advocacy (OIEA) should enhance the
   training available to OIEA staff on the Investor Response Information System
   and on processing investor inquiries and complaints. In particular, these
   enhancements should address areas where confusion or errors are common
   or persistent.

   Management Comments. OIEA concurred with this recommendation. See
   Appendix V for management’s full comments.

   OIG Analysis. We are pleased that OIEA concurred with this
   recommendation.
Assessment of OIEA’s Functions                                       September 30, 2011
Report No. 498
                                       Page 11
   Recommendation 3:

   The Office of Investor Education and Advocacy (OIEA) should make
   additional training available to OIEA staff, including training provided by other
   divisions or offices within the Securities and Exchange Commission, on new
   and emerging topics in the securities industry to help ensure that information
   provided to investors is accurate and current. OIEA management should
   regularly solicit ideas for training topics from OIEA staff.

   Management Comments. OIEA concurred with this recommendation. See
   Appendix V for management’s full comments.

   OIG Analysis. We are pleased that OIEA concurred with this
   recommendation.

   Recommendation 4:

   The Office of Investor Education and Advocacy should take measures to
   ensure that all staff, including staff with telephone duty responsibilities, have
   sufficient time to attend periodic training.

   Management Comments. OIEA concurred with this recommendation. See
   Appendix V for management’s full comments.

   OIG Analysis. We are pleased that OIEA concurred with this
   recommendation.


Finding 3: The Automated Bridge for
Transferring Allegations of Wrongdoing From
IRIS to TCR Has Experienced Problems With
Transmitting Complete Information and
Transferring Document Attachments
       OIEA transfers allegations of wrongdoing it receives from the
       investing public through an automated bridge from IRIS to
       the Tips, Complaints, and Referrals (TCR) system, a
       repository for storing all tips, complaints, and referrals that
       the SEC receives. We found cases in which the description
       of a transferred item was incomplete in the TCR listing and
       cases in which supporting documents submitted by investors
       as attachments to complaints had not transferred across the
       bridge.

Assessment of OIEA’s Functions                                      September 30, 2011
Report No. 498
                                      Page 12
Data Transfer From IRIS to the TCR System
Through an automated bridge, OIEA transfers all allegations of wrongdoing that it
enters in IRIS to the TCR system, a repository for storing all tips, complaints, and
referrals that the SEC receives. The Office of Market Intelligence (OMI) in the
Division of Enforcement (Enforcement) uses the TCR system to fulfill its
responsibility to collect, analyze, and monitor the complaints the SEC receives
each year. The SEC’s Division of Risk, Strategy, and Financial Innovation
(RiskFin) maintains the TCR system.

IRIS was launched on November 14, 2009. Before April 2010, OIEA e-mailed
allegations of wrongdoing to Enforcement. From April 2010 through June 22,
2010, OIEA used a manual synchronization process between IRIS and an interim
repository for tips, complaints, and referrals maintained by OMI. 17 In late June
2010, OIEA began running an automated synchronization process between IRIS
and the interim repository. OIEA ran this process until mid-March 2011, when
the interim repository was retired and the current TCR system and automated
bridging system were activated.

Data Field Limitations in the TCR System
We obtained a list of allegations of wrongdoing from RiskFin that were obtained
from the TCR system for the period covering November 14, 2009, through March
31, 2011. 18 We examined a sample of items from that list to determine whether
the information in the TCR list maintained by RiskFin was consistent with the
information in OMI’s TCR summary and the information contained in IRIS. We
found two cases in which the information in the field describing the investor’s
allegation(s) in the TCR system was incomplete.

OMI staff said that they did not know why the information in the TCR system was
incomplete and referred us to RiskFin for an explanation. RiskFin stated that
there is a known limitation in the TCR system with respect to its text field. The
field can contain a maximum of 4,000 characters, including spaces. To submit
material that exceeds this limit, OIEA must send a PDF file of the entire IRIS
complaint form to OMI. We asked a RiskFin employee whether the SEC planned
to address this limitation in the TCR system, and he responded that it “is unlikely
to be resolved in this version of the TCR software due to the difficulty of
addressing it technically and issues related to the software development vendor.”
However, another RiskFin employee, who oversees the TCR system, said in late
August 2011 that the Commission planned to increase the character limitation “in
the next four to six weeks.”

17
   The manual process required the SEC’s Office of Information Technology to execute queries to generate
the data, which would be copied from IRIS to the interim repository.
18
   We did not review transfers of allegations of wrongdoing from OIEA to Enforcement before IRIS’s
November 14, 2009, launch because we were advised that obtaining a complete listing of such transfers
would be time-consuming and difficult and the interim system is no longer in use.
Assessment of OIEA’s Functions                                                     September 30, 2011
Report No. 498
                                               Page 13
Limitations in the Automated Bridge Between IRIS and the TCR
System
During our audit, we found instances in which supporting documents provided by
investors had not transferred from IRIS through the automated bridge to the TCR
system. 19 Some of the IRIS files that we reviewed indicated that documents had
been attached to the file, but we did not find the attachments in the files that had
transferred to the TCR system. We also reviewed a TCR record in which an
Enforcement employee stated that an attachment had been mentioned in OIEA’s
notes but that the transmitted file contained no attachment. We obtained a
subsequent e-mail from an OIEA employee to Enforcement that transmitted the
attachment. We are uncertain how frequently attachments fail to transfer across
the automated bridge. A RiskFin employee said that it would be difficult to
estimate the percentage of cases that experienced problems with attachments
without performing extensive research.

To address the attachment issue, OIEA implemented a procedure on May 28,
2010, to send attachments and IRIS records to OMI by e-mail. OIEA’s standard
operating procedures regarding transferring information to OMI state the
following:

         Miscellaneous AWD [allegation of wrongdoing] issues.
         Attachments, including web forms, must be added as pdf
         documents to the IRIS record in the Attachment section
         BEFORE seeking AWD approval from the branch chiefs.
         Branch chiefs should confirm the attachments, including
         those in e-mails, are in the record before approving an AWD.

         Attachments added to an IRIS record AFTER an AWD
         crosses the bridge will not be added to the TCR record.
         Therefore, if additional information or attachments come in
         for an already migrated AWD, e-mail them to TCR-ENF and
         OMI staff will perform the update. Be sure to include IRIS
         and TCR numbers in the subject line. 20

We found concern among OIEA staff about the limitations of the automated
bridge, including time they spend sending attachments to OMI. In our survey, we
asked OIEA staff the following question: “Are there any tasks that you or other
OIEA employees perform that you believe are inefficient?” In narrative
responses to survey questions and in interviews, several OIEA staff members
cited the automated bridge as an example of an inefficiency, as follows:



19
   Supporting documents include, for example, account statements, news clippings, and letters written to
broker-dealers and investment advisers.
20
   OIEA, Standard Operating Procedures for the Investor Assistance Group (May 5, 2011), p. 27.
Assessment of OIEA’s Functions                                                       September 30, 2011
Report No. 498
                                                Page 14
       •   “Some of the procedural guidelines within the IRIS system are
           redundant [with tasks] we perform for other offices; i.e., TCR-
           ENF.”
       •   “Coordination between the OMI and IRIS systems.”
       •   “OIEA staff members are expected to send a PDF of the IRIS
           screen with file comments and activities along with any
           attachments and exhibits that investors might have sent
           separately (outside of the bridge) in an e-mail to OMI because
           PDFs do not go over the bridge to OMI.”

OMI has also expressed concern about problems with transferring information
between IRIS and the TCR system using the automated bridge. According to
OMI, certain fields in IRIS do not transfer to the TCR system, and the fields that
do transfer often contain bunched text that is difficult to read. As a result, OMI
said that it is concerned that important information might be missed and that it
often has to reach out to OIEA or go into IRIS manually to deal with difficulties in
the bridge process. OMI indicated that this incomplete transfer of information is a
significant issue.

An OMI management official also told us that an OMI staff member spends many
hours dealing with documents that are not transferred from IRIS to the TCR
system. According to the OMI official, OMI is particularly concerned about
transfers of documents that OIEA receives after the related file has already been
transferred to the TCR system. In those cases, OIEA sends an e-mail to OMI
and expects OMI to upload the documents into the TCR system. Some of these
e-mails attach the additional documents. Other e-mails, however, consist only of
a notification that additional documents are in IRIS, and an OMI staff member
must retrieve the attachments from IRIS. OMI is concerned not only about the
additional work for OMI staff, but also about the potential loss of important
information when the documents are not automatically transferred by the bridge.
The OMI management official said that he had met with OIEA managers and
asked them to enter certain items into the TCR system directly, rather than
submitting them through the IRIS bridge, because he believes this would be a
more efficient process. He said that OIEA had declined his request, however.
The OMI staff member who works on items transferred from IRIS to the TCR
system told us that she spends less time on manual work now than in the past:
“[F]or a period we were attaching the documents manually. That is still true for
subsequent information. I cannot say with certainty, but it appears that the
information now comes over accurately and is in the proper fields.”




Assessment of OIEA’s Functions                                    September 30, 2011
Report No. 498
                                     Page 15
   Recommendation 5:

   The Office of Investor Education and Advocacy (OIEA), in coordination with
   the Office of Market Intelligence and the Division of Risk, Strategy, and
   Financial Innovation, should continue to enhance the bridge between OIEA’s
   Investor Response Information System and the Tips, Complaints, and
   Referrals system, particularly the functions for transferring attachments and
   for ensuring the complete transfer of information.

   Management Comments. OIEA concurred with this recommendation. See
   Appendix V for management’s full comments.

   OIG Analysis. We are pleased that OIEA concurred with this
   recommendation.


Finding 4: Investor Specialists in SEC
Regional Offices Do Not Follow the Same
Procedures Used by Investor Specialists at
Headquarters and Provide Inconsistent
Responses to Inquiries
       Investor specialists in SEC regional offices report to regional
       directors and follow the internal procedures of their regional
       offices, which are not always consistent with OIEA’s
       standard operating procedures. We also found significant
       gaps in regional office investor specialists’ knowledge of the
       resources available on the SEC website, which led to
       inconsistent responses to investor inquiries. In addition,
       regional office investor specialists did not receive the same
       training on IRIS as their headquarters counterparts. Further,
       they stated that they have found it difficult to participate in
       local educational events because of budget constraints.

Different Procedures Employed by Regional Offices
During our audit, we found that investor specialists in regional offices follow
procedures that differ from OIEA’s standard operating procedures in their
handling of allegations of wrongdoing and the processing of investor complaints
and inquiries.

Processing of Allegations of Wrongdoing. We found that investor specialists
in regional offices determine whether their supervisors should review an inquiry
or a complaint based on the type of inquiry or complaint involved or the
Assessment of OIEA’s Functions                                    September 30, 2011
Report No. 498
                                     Page 16
complexity of a matter. We reviewed a sample of allegations of wrongdoing
processed in regional offices and found that only 33 percent of the sample had
been reviewed by supervisors. In comparison, OIEA’s standard operating
procedures call for branch chief review of all allegations of wrongdoing and
emphasize the importance of such review to prevent improper handling of
allegations of wrongdoing. 21

We also found that six regional offices entered allegations of wrongdoing directly
into the TCR system, rather than entering them into IRIS and then transferring
them to TCR through the automated bridge, as called for in OIEA’s standard
operating procedures. Because of issues with incomplete transfer of information
and inability to transfer attachments that arose when the bridge was activated,
some regional offices decided to enter allegations of wrongdoing directly into the
TCR system. Managers in several regional offices said that because their
investor specialists also work on Enforcement matters, they are more familiar
with the TCR system than OIEA investor specialists. According to one of the six
regional offices whose investor specialists enter allegations of wrongdoing
directly into the TCR system, OIEA is aware of this inconsistent practice. A
regional office employee stated that although regional office investor specialists
enter allegations of wrongdoing into IRIS, they also hand-deliver material related
to allegations of wrongdoing directly to regional Enforcement staff. An employee
in OMI, which is responsible for collecting, analyzing, and monitoring tips,
complaints, and referrals that the SEC receives each year, told us that OMI
preferred that regional offices enter allegations of wrongdoing directly into the
TCR system. Accordingly, there is no present effort to resolve this inconsistency.

Processing of Investor Complaints and Inquiries. During our testing of a
sample of investor complaints and inquiries, we identified an inquiry from
November 2010 that had been handled by a regional office and appeared to still
be open. The investor specialist in the regional office who was responsible for
the file told us that the inquiry was closed but that she has not had time to record
file activities and close the case in IRIS. In addition, we found during our audit
that five regional offices consolidate inquiries and complaints and enter them in
IRIS all at once two or three times a week. Some investor specialists in those
regional offices indicated that the reason for this practice is that they lack
resources and have multiple job duties and are therefore unable to enter inquiries
and complaints more frequently. This practice, however, is inconsistent with
OIEA standard operating procedures, which require investor specialists to enter
inquiries and complaints into IRIS shortly after they have received a call from an
investor or reviewed a written inquiry or complaint and may result in less than
timely information in IRIS.

During our review of the sample of complaints and inquiries handled by regional
offices, we also found that staff in some regional offices do not always complete

21
     OIEA, Operating Procedures for the Investor Assistance Group, p. 28.
Assessment of OIEA’s Functions                                              September 30, 2011
Report No. 498
                                                  Page 17
the “description” field in IRIS, which explains the nature of the complaint or
inquiry. Failure to complete this field is inconsistent with OIEA practice and
results in a lack of complete information being provided in IRIS. In some cases,
the lack of descriptive information prevented us from being able to evaluate
whether investor inquiries were addressed because we were unable to determine
what the investor was inquiring about and how the inquiry was handled. In the
case of telephone inquiries, there is no record of the nature of the inquiry if the
responding regional investor specialist did not enter sufficient information and the
investor did not provide any written documents.

Inconsistent Responses to Inquiries
To determine whether SEC investor specialists provided consistent information in
response to inquiries, we called OIEA and all 11 regional offices with the same
inquiry— how to obtain background information on a person offering stocks with
a high rate of return and verify the legitimacy of the person. We asked regional
office investor specialists whether it was possible to obtain any information from
the SEC website that addressed our questions. The SEC website does contain
such information. The “Check Out Brokers & Advisors link,” which appears under
“Investor Information” on the SEC home page, 22 takes investors who click on it to
a page that contains tips on verifying the identity of brokers and advisers;
detailed information about broker-dealers and investment advisers; procedures
investors should perform before investing; links to the FINRA BrokerCheck
website and the National Association of Securities Dealers website; and a link to
the Central Registration Depository, a computerized database that contains
information about most brokers, their representatives, and the firms for which
they work. 23

One OIEA investor specialist properly guided us to the “Check Out Brokers &
Advisors” link to obtain the information we were seeking and to the link to
FINRA’s BrokerCheck website to verify the legitimacy of a person selling a stock,
but we found that investment specialists in several SEC regional offices were
unfamiliar with the information on the SEC website. In response to our inquiry,
one regional office investor specialist told us that there was nothing on the SEC
website about obtaining information on an individual selling a stock and
instructed us to call the National Association of Securities Dealers (which is the
former name of FINRA). Another regional office investor specialist said that the
SEC did not have a system to check whether a broker-dealer is licensed, but that
FINRA did have such a system. While this statement is true, the SEC website,
as noted above, has a link to FINRA’s BrokerCheck website, and the investor
should have been directed to the “Check Out Brokers & Advisors” page of the
SEC website, which contains the link and other pertinent information.



22
     http://www.sec.gov.
23
     http://sec.gov/investor/brokers.htm.
Assessment of OIEA’s Functions                                    September 30, 2011
Report No. 498
                                            Page 18
Lack of IRIS Training for Regional Office Investor Specialists

OIEA management and regional office staff informed us that regional office
investor specialists did not receive the same training on IRIS as OIEA investor
specialists received. When IRIS was implemented, OIEA headquarters staff
received 53 hours of classroom training on using the system. Training for
regional office investor specialists, on the other hand, consisted primarily of a
webinar and telephone training. In addition, the former Assistant Director of
OIEA visited five regional offices to train regional investor specialists. Another
regional office indicated that it had been promised a visit from OIEA to train staff
on the use of IRIS, but no one from OIEA visited and nothing further was heard
from OIEA regarding the training. Investor specialists in five regional offices
indicated that the webinar and the telephone training were not sufficient.
Although OIEA does, on occasion, address specific questions that regional office
investor specialists have concerning IRIS, staff in several regional offices said
that they should have received the same in-person training that OIEA staff
received because regional office investor specialists perform the same functions
as OIEA staff. Further, a number of regional office investor specialists indicated
that it was difficult to navigate IRIS because it was more complicated than the
previous system.

OIEA Does Not Review Regional Office Responses or Oversee
Their Practices
During our audit, when we asked questions about issues identified in regional
office files in our sample, OIEA management suggested that we contact the
regional offices directly because OIEA management does not have authority over
regional office investor specialists and is not aware of their processes or issues.

During our review of sampled files, for example, we found that a regional office
had created a “dummy” file. OIEA told us that it did not know why the file had
been created. When we asked regional office staff about the file, they said that it
had been created because a staff member was on leave and they wanted to
ensure that another employee who assumed the staff member’s job had access
to ACTS Plus and could properly use the system. 24 OIEA management was also
unaware of a two-month delay in assigning an inquiry received by a regional
office to an investor specialist and the fact that some investor specialists in
regional offices did not complete the “description” field in IRIS for some inquiries.
According to OIEA management, the OIEA standard operating procedures are
sent to regional offices as a courtesy, and OIEA cannot require the regions to
follow those procedures because regional offices do not report to OIEA. Hence,
OIEA has indicated that it has no responsibility or authority related to regional
offices’ operations pertaining to investor assistance or education.


24
     ACTS Plus was the tracking system that preceded IRIS.
Assessment of OIEA’s Functions                                     September 30, 2011
Report No. 498
                                                Page 19
Inadequate Funds for Regional Office Investor Specialists to
Participate in Local Educational Events

Several regional offices informed the OIG that because of budget constraints,
investor specialists in regional offices have had to decline invitations to
participate in educational events in their regions. Federal agencies and other
organizations that work with OIEA have said that the SEC’s presence at and
involvement in such events are critical to educate investors. In written
correspondence, OIEA management and the former SEC Executive Director had
asked regional directors to assign a portion of their budgets for regional office
investor specialists to participate in educational events. Regional office
management and staff told us that it would be helpful for SEC headquarters to
allocate a certain amount of funds to regional offices for educational events
because staffing resources and funds that they receive are usually used for
enforcement matters and the examination program.

   Recommendation 6:

   The Office of Investor Education and Advocacy should provide regional office
   investor specialists with ongoing training on investor assistance, including
   information on resources available on the Securities and Exchange
   Commission website, and on the Investor Response Information System.

   Management Comments. OIEA concurred with this recommendation. See
   Appendix V for management’s full comments.

   OIG Analysis. We are pleased that OIEA concurred with this
   recommendation.

   Recommendation 7:

   The Office of Investor Education and Advocacy (OIEA) should coordinate with
   regional offices to establish a system for communicating regularly to help
   ensure that investor specialists throughout the Securities and Exchange
   Commission are providing consistent assistance to investors and that OIEA is
   aware of significant issues in the regional offices.

   Management Comments. OIEA concurred with this recommendation. See
   Appendix V for management’s full comments.

   OIG Analysis. We are pleased that OIEA concurred with this
   recommendation.




Assessment of OIEA’s Functions                                  September 30, 2011
Report No. 498
                                    Page 20
   Recommendation 8:

   The Office of Investor Education and Advocacy should continue to consult
   with regional offices to determine ways it could facilitate participation by the
   Securities and Exchange Commission in local events held to educate
   investors and ways to assist regional offices with other efforts related to
   educating investors.

   Management Comments. OIEA concurred with this recommendation. See
   Appendix V for management’s full comments.

   OIG Analysis. We are pleased that OIEA concurred with this
   recommendation.


Finding 5: OIEA Obtains Very Limited
Qualitative Feedback on Its Performance
From Investors
       OIEA staff are required to ask investors who call OIEA with
       an inquiry or complaint to take a survey at the end of the call,
       but the audit found that OIEA staff are not consistently doing
       so. Investors who submit an inquiry or complaint using the
       SEC web form are supposed to receive a follow-up survey
       from OIEA, but only a low percentage of these surveys are
       completed and returned to OIEA. We also found that the
       survey sent to investors who use the web form contained
       questions specifically geared to telephone inquiries.

OIEA Surveys of Investors Who Contact OIEA
Because telephone calls to OIEA from investors are not monitored or recorded
and management review of files related to investor inquiries and complaints is
limited, surveys—despite their limitations—are one of the only available
mechanisms for obtaining feedback on OIEA’s customer service.

OIEA officials informed us that it began using the American Customer
Satisfaction Index in July 2010 to obtain feedback on inquiries received through
the SEC’s web form. According to an OIEA technology specialist, OIEA’s
tracking system automatically sends a survey to an investor 10 days after an
inquiry is closed as long as the investor has supplied a valid e-mail address and
certain other criteria (outlined later in this section) are met. Until recently, the
survey was sent 3 days after the inquiry was closed, but in their survey
responses, some investors indicated that they had not yet received a response to
their inquiry. An OIEA management official told us that investors usually
Assessment of OIEA’s Functions                                     September 30, 2011
Report No. 498
                                      Page 21
received responses to their inquiries within 7 days but not within 3 days, and that
the survey send-out date was changed in order to obtain more accurate survey
responses. In addition, OIEA initially received the survey results in batches once
or twice a month but began receiving them weekly in February 2011.

In fall 2010, OIEA began offering surveys to investors who make telephone
inquiries. To access the survey, the caller must be connected by the OIEA staff
member who takes the call. According to OIEA management, OIEA staff
members are required to ask investors who call OIEA to take a survey at the end
of the call.

OIEA Management’s Review of Survey Results
According to OIEA management, OIEA’s three branch chiefs and the Assistant
Director of the Office of Investor Assistance review the survey results weekly and
follow up, as necessary, if possible. For instance, if an investor has provided his
or her name and contact information and OIEA management deems it necessary
to follow up on the results of the survey, an OIEA staff member, working under
management’s direction, contacts the investor. However, because a majority of
the survey responses are anonymous and many do not note the name of the
staff member who addressed the inquiry, OIEA is unable to associate many of
the survey comments with specific inquiry files and therefore cannot always
respond directly to the investor.

Criteria for Receiving a Follow-Up Survey by E-Mail
The OIG audit found that surveys are not sent to all investors who submit
inquiries or complaints using the SEC web form. According to an OIEA
information technology specialist, the following criteria must be met for a follow-
up survey to be sent:

       1. The case must be closed.
       2. In the web form, the primary e-mail, personal e-mail, or other e-
          mail field must contain the @ symbol.
       3. “Correspondent type” must be “individual.”
       4. The disposition of the case must be "responded to
          correspondent."
       5. The type of the case must be “OIEA correspondence.”

For instance, if OIEA determines that no correspondence or further action is
necessary on an inquiry because it is a repeat inquiry that has been previously
addressed, a survey would not be sent.

From July 1, 2010, through March 31, 2011, OIEA received 1,780 responses to
e-mailed surveys. OIEA management determined that 12,092 out of 48,223
inquiries from July 1, 2010, through March 31, 2011, met the necessary criteria to
Assessment of OIEA’s Functions                                     September 30, 2011
Report No. 498
                                      Page 22
receive a follow-up survey by e-mail. Assuming that 12,092 surveys were e-
mailed to correspondents over that period, 1,780 responses represent a
response rate of about 15 percent. 25

Failure to Offer Telephone Follow-Up Survey
As part of our audit, we placed two telephone calls to 1-800-SEC-0330, the SEC
Toll-Free Investor Information Service number, which is handled by OIEA
employees at SEC headquarters. We also called all of the SEC’s 11 regional
offices. In each case, we asked how to obtain background information on a
person offering stocks with high rates of return and how to verify the legitimacy of
the person.

When we called the SEC’s Toll-Free Investor Information Service number, the
greeting stated that callers would have the option of taking a survey at the end of
the call, but we were not offered that option at the end of either of our calls to that
number. Although we called all 11 regional offices, we spoke with an investor
specialist in only three of the regional offices, and none offered us the opportunity
to take a survey. 26 We were unable to reach an investor specialist in the other
eight regional offices and were connected instead to voicemail. Accordingly,
notwithstanding the requirement to allow investors to take a survey after the call,
in none of the cases in which we contacted OIEA or the regional offices were we
given the opportunity to take the survey.

Irrelevant Questions in E-Mailed Surveys
As part of our audit, we submitted an inquiry using the SEC’s web form that was
related to a banking issue that OIEA should have referred to another federal
agency. After 5 days, we received a response from OIEA that provided another
agency’s contact information and instructions on where to find information about
banking issues on the SEC website. A survey was sent to us 10 days after the
inquiry was addressed. In reviewing the survey, however, we found that it
contained a number of questions relevant only to telephone inquiries. For
example, it asked survey recipients to “rate availability of staff, staff knowledge of
the issue you called about, convenience of contact center hours, and consistency
of response/information if you spoke to more than one person.”




25
   We calculated this number by dividing the number of survey responses received by the estimated number
of written inquiries (1,780 ÷ 12,092).
26
   OIEA management informed us that regional offices’ telephone systems do not have the ability to offer a
survey to investors.
Assessment of OIEA’s Functions                                                      September 30, 2011
Report No. 498
                                               Page 23
   Recommendation 9:

   The Office of Investor Education and Advocacy (OIEA) should issue periodic
   reminders to OIEA staff members that they are required to provide investors
   with the option to complete a survey after every call.

   Management Comments. OIEA concurred with this recommendation. See
   Appendix V for management’s full comments.

   OIG Analysis. We are pleased that OIEA concurred with this
   recommendation.

   Recommendation 10:

   The Office of Investor Education and Advocacy should revise the questions in
   its survey sent to investors who use the Securities and Exchange
   Commission’s web form for inquiries and complaints by deleting questions
   applicable only to telephone inquiries and complaints and adding questions
   specifically relevant to inquiries and complaints submitted through the web
   form.

   Management Comments. OIEA concurred with this recommendation. See
   Appendix V for management’s full comments.

   OIG Analysis. We are pleased that OIEA concurred with this
   recommendation.


Finding 6: Information on the SEC Website
About How Investors May Contact the SEC by
Telephone to Make Inquiries or Complaints Is
Not Displayed Prominently or Presented
Clearly
       The SEC.gov home page contains no specific information
       about how to contact the SEC by telephone to make
       inquiries and complaints. To find that information, investors
       must find and click on several links that are neither
       prominently displayed nor clearly presented.




Assessment of OIEA’s Functions                                  September 30, 2011
Report No. 498
                                    Page 24
Finding the Appropriate Toll-Free Number

We found that the SEC’s main website is difficult to navigate because of the large
quantity of information it contains and the manner in which the information is
displayed. OIEA management and staff members agree with our assessment of
the website and stated that it could be modified.

When we examined the SEC website, www.sec.gov, we found that the home
page contains no specific information about how to contact OIEA by telephone to
make inquiries or complaints. To find a telephone number, investors must first
go to the bottom of the page and click “Contact.” Doing so takes the investor to a
page that lists seven general options, including “Key Telephone Numbers” and
“Investor Complaint Center.” The “Investor Complaint Center” option does not
provide a telephone number for inquiries and complaints. To find such a number,
the investor must instead select “Key Telephone Numbers,” which takes the
investor to another list, titled “Useful SEC Contact Information.” Included on that
list are the following two entries, among others:

       Information Line (General SEC Information):
       (888) SEC-6585
       To contact the SEC and to obtain free investor education materials.

       SEC Toll-Free Investor Information Service:
       1-800-SEC-0330
       To request investor assistance or to file a complaint, please see
       "SEC Center for Complaints and Enforcement Tips."

Callers to either number receive the same recorded greeting and menu options.
We were unable to determine why two telephone numbers are provided. OIEA
agreed with our assessment that only one number should be provided and that
the SEC Toll-Free Investor Information Service telephone number should be
moved up on the “Useful SEC Contact Information” list, where it is currently listed
fifth.

Investor.gov and PAUSE

Investor.gov was established to support OIEA’s mission to educate investors,
separate from the SEC’s main website. It provides tools for investors to use in
their investing activities and displays publications, studies, and other information.
However, the Investor.gov home page does not display the SEC Toll-Free
Investor Information Service telephone number. To find that number, investors
must click on the “Contact Us” link in the upper right corner of the home page.
OIEA management stated that it prefers that investors use the SEC web form to
file a complaint instead of calling OIEA because in many cases investors have to
send documents related to their complaint to OIEA. A link to Investor.gov is on
the home page of the SEC website.
Assessment of OIEA’s Functions                                     September 30, 2011
Report No. 498
                                      Page 25
The SEC also maintains Public Alert: Unregistered Soliciting Entities (PAUSE)
on the SEC website. PAUSE lists unregistered entities or entities that have been
the subject of complaints received by the SEC. Because Investor.gov provides
guidance to investors about investing activities, including safe investing, we
recommended to OIEA that information about PAUSE be included on the
Investor.gov website. During the course of our audit, OIEA posted PAUSE on
the Investor.gov website.

   Recommendation 11:

   The Office of Investor Education and Advocacy (OIEA), in coordination with
   the Office of the Secretary, should move the Securities and Exchange
   Commission’s (SEC) Toll-Free Investor Information Service telephone
   number to a more prominent location on the SEC website, such as the home
   page.

   Management Comments. OIEA concurred with this recommendation. See
   Appendix V for management’s full comments.

   OIG Analysis. We are pleased that OIEA concurred with this
   recommendation.

   Recommendation 12:

   The Office of Investor Education and Advocacy should determine, in
   coordination with the Office of the Secretary, whether there should be one
   Securities and Exchange Commission information service telephone number
   instead of two on the “Useful SEC Contact Information” list on the Securities
   and Exchange Commission website.

   Management Comments. OIEA concurred with this recommendation. See
   Appendix V for management’s full comments.

   OIG Analysis. We are pleased that OIEA concurred with this
   recommendation.

   Recommendation 13:

   The Office of Investor Education and Advocacy should display the SEC Toll-
   Free Investor Information Service telephone number on the home page of
   Investor.gov for investors to make inquiries or complaints.

   Management Comments. OIEA concurred with this recommendation. See
   Appendix V for management’s full comments.



Assessment of OIEA’s Functions                                  September 30, 2011
Report No. 498
                                    Page 26
   OIG Analysis. We are pleased that OIEA concurred with this
   recommendation.


Finding 7: Communication Between Office of
Investor Assistance Staff and Management and
Between OIEA Offices Needs Improvement
       Communication between Office of Investor Assistance staff
       and management and between OIEA offices is inadequate.
       This lack of communication has raised concerns about low
       morale within the Office of Investor Assistance.

In narrative responses to survey questions and in interviews, OIEA staff
repeatedly expressed concern about the lack of communication between OIEA
management and staff and about the effect of poor communication on staff
morale. For example, we received the following comments:

       •   “I believe management routinely makes poor decisions that
           hamper production/progress. Management has no interest in
           listening to the opinions of its staff. This disconnect has led to
           extremely low morale amongst the staff. For the past year, the
           communication from management illustrates their lack of
           respect for their employees. This lack of respect makes it hard
           to take pride in one's job. I find it unsettling the lack of
           professionalism exemplified by the management staff. They
           routinely minimize the job responsibilities of the staff which in
           turn ruins any sense of motivation.”

       •   “I thought that the procedures were overly rigid, totally
           micromanaged. This contributed to the poor morale,
           significantly.”

       •   “The office’s morale is horrible. They [management personnel]
           are not allowing staff input. . . . You try to make suggestions
           about making the office better, but suggestions are dismissed
           out of hand. You make a suggestion and get an e-mail saying I
           told you how I want you to do it.”

During our audit, we found that OIEA management was also concerned about
poor morale within the Office of Investor Assistance. Our review of OIEA
meeting agendas revealed agenda items related to office morale, and OIEA
managers expressed concern about office morale during interviews. OIEA

Assessment of OIEA’s Functions                                         September 30, 2011
Report No. 498
                                      Page 27
management also indicated that there have been concerns with respect to
communication between staff and management.

Standards for Internal Control in the Federal Government states, “For an entity to
run and control its operations, it must have relevant, reliable, and timely
communications relating to internal as well as external events.” It also states,
“Effective communications should occur in a broad sense with information flowing
down, across, and up the organization.”27 We found during this audit that
communication within OIEA is not as effective as possible, particularly—but not
exclusively—with respect to “information flowing down.” As a result, staff morale
appears to have suffered, which could negatively affect the efficiency and
effectiveness of OIEA operations.

Overall Communication Between Management and Staff

Responses to our survey cited overall weaknesses in communications between
OIEA management and staff. When asked whether senior management in OIEA
communicates its goals and priorities to OIEA employees, only 30 percent of the
respondents answered “yes.” Of the remaining 70 percent, 40 percent answered
“occasionally” and 30 percent answered “no.”

Staff concerns about overall communication between management and staff
were evident in narrative responses to a number of the survey questions,
including the following examples:

        •   “Things were just told to us . . . mainly through e-mail from
            Deputy Director.”

        •   “Information is parceled out on a ‘need to know’ basis. There is
            something of a ‘hide the ball’ mentality among senior
            management. While this is true of senior management in other
            divisions and offices as well, there have been instances in OIEA
            of work going out prematurely and then being pulled because a
            key piece of information was not communicated.”

        •   “I believe there needs to be communication between
            management and the staff. We have asked for this before and
            weekly/biweekly meeting have been set up between the staff
            and their respective branch chief. These meetings serve as a
            way for the branch chief to relay senior management's
            concerns/upcoming policies. I find these meeting to be an
            improvement to the nonexistent communication which existed
            before. My issue with this system is there is no forum to provide

27
  Government Accountability Office, Standards for Internal Control in the Federal Government, GAO/AIMD-
00-21.3.1 (November 1999), pp. 18-19.
Assessment of OIEA’s Functions                                                    September 30, 2011
Report No. 498
                                              Page 28
           feedback/suggestions from the staff. The branch chiefs are
           intimidated by senior management and routinely say they would
           not be receptive to our input. I understand that management
           will always have the final say. However, to have no interest in
           listening to our opinions is very frustrating and does not foster
           motivation.”

       •   “Management needs to listen to the concerns of the staff on a
           regular basis.”

However, three OIEA employees indicated in their comments that they found that
management is accessible and communicates with staff members:

       •   “Management is very involved and focused. Management is
           approachable and very responsive.”

       •   “We are afforded appropriate levels of independence and are
           not micromanaged. If I need the support of my supervisor, all I
           have to do is ask. If I am comfortable working a project by
           myself, it’s my responsibility to keep everyone informed.”

       •   “Within OIEA investor assistance, there is great communication,
           and we all work together in a nice atmosphere. The branch
           chiefs contribute to a serene work environment.”

OIEA managers stated that they have an open door policy but that staff members
do not communicate with them. Some OIEA staff stated that management has
heard their suggestions but has not acted upon them.

Communication Related to OIEA Procedures

Many employees we interviewed stated that when OIEA operating procedures
are revised, staff members are simply instructed to follow the new procedures
without being provided any explanation for the changes or any opportunity to
provide feedback before the changes are implemented.

In our review of e-mails and meeting notes prepared by OIEA management, we
did not find specific evidence that management sought feedback from staff on
revised procedures. After we informed OIEA management of this finding on
August 11, 2011, management provided us with an e-mail that had been sent to
all OIEA staff and regional offices asking for feedback on OIEA’s draft standard
operating procedures. The e-mail was dated April 26, 2011, and asked for
comments by May 3, 2011, giving recipients only five business days to respond.
A manager told us that he had received only three responses from OIEA staff
and one response from a regional office. According to an OIEA staff member,
however, the difficulty of having only five days to review and provide comments
Assessment of OIEA’s Functions                                    September 30, 2011
Report No. 498
                                     Page 29
on the draft was compounded by the fact that OIEA staff were in the process of
addressing a backlog of investor complaints and questions when they received
the e-mail. The OIEA staff member said that he did not have time to review the
draft until three weeks after the e-mail had been sent. He stated that although he
had comments on the draft, he did not see any benefit to sending them to
management because the deadline for commenting had passed.

In response to our request for additional examples of management seeking
feedback on OIEA procedures from staff, a management official stated,
“[E]xamples of e-mails specifically requesting feedback on policies and
procedures is limited. Instead, the majority of e-mails regarding procedures spell
out the new or revised procedures and invite the staff to contact management
with any questions. Management views these invitations as an opportunity for
the staff to provide feedback.” OIEA management provided us with examples of
such e-mails.

We also found an instance in which staff were not informed of a new procedure
even after it had been implemented. Beginning in February 2009, a senior OIEA
attorney started reviewing allegations of wrongdoing received by OIEA staff,
including determining whether staff had entered them correctly in IRIS. We
asked an OIEA manager whether OIEA staff had been notified about the
introduction of this review. The manager said that there had been no official
announcement because the senior attorney is a resource on other matters and
staff are therefore not surprised when she offers observations. She added that
there was “nothing to notify employees of.” However, in an interview with a staff
member who had received a communication from the senior attorney resulting
from the senior attorney’s review of the staff member’s handling of a complaint,
the staff member said the following with respect to the communication: “I was
wondering why it did not come from my branch chief. . . . I had a situation where I
wrote to the firm. . . . The firm was late with their response. [The senior attorney]
had been monitoring it and sent me a reminder e-mail that the firm had not
responded, with language like I was a third grader.”

Other OIEA staff expressed their dissatisfaction with management’s blanket
implementation of new procedures to address concerns about the actions of a
single employee, along with their belief that management does not treat staff as
professionals, commenting as follows:

       •   “Allow the attorneys to act as attorneys. In other words, believe
           that we have the ability, intelligence and training to respond to
           investors without micromanagement. In addition, treat the
           specialists like the professionals that they are. To set out
           procedures for the entire office based on the actions of one
           person is not an efficient way to run any office.”



Assessment of OIEA’s Functions                                     September 30, 2011
Report No. 498
                                      Page 30
        •    “Management does not treat OIEA employees as professionals
             and micromanages. As an attorney, you would think I would
             have discretion, but I do not have any discretion anymore. It is
             totally a cover your behind type of office, and I cannot speak for
             others’ performance, but it seems if there is a problem with one
             employee, a whole new set of policies is implemented for the
             whole staff and it is not very efficient or thought out. Some
             things work for some employees, but not for others. My other
             big concern is that current top-level management besides [the
             Director] have never performed the duties of my position and
             the way they go about implementing policies shows that. If they
             were actual users they would understand how difficult it is and if
             you make a little mistake, it seems like a very big deal now.”

With respect to staff concerns about management’s implementation of new or
revised procedures without obtaining adequate feedback from staff, OIEA
management said that staff should know that certain rules and regulations are
required and that following them is not at OIEA’s discretion. For example,
several OIEA staff members informed us that OIEA recently learned that its
employees should not tell FINRA employees whether there is an ongoing
investigation of a company or individual. In the past, if a FINRA employee asked
an OIEA employee whether there was an ongoing investigation, the OIEA
employee would provide an answer even when the information was not public.
The OIEA Chief Counsel’s Office, after consulting with the Division of
Enforcement, advised OIEA that such requests for information should be handled
by OMI, rather than OIEA, because SEC regulations delegate authority for
providing access to nonpublic information to the Director of the Division of
Enforcement. 28 Under the revised procedure, OIEA employees are required to
refer requests from FINRA for nonpublic information to OMI. The OIEA
employees who spoke with us were dissatisfied with the new process and that
they were not initially provided an explanation of why the procedure changed.

According to OIEA management, some OIEA procedures were based on
historical practices rather than on written standard operating procedures and had
not been thoroughly researched to determine whether they were legally
permissible. In addition, an OIEA manager said that she believes there was no
clear line of authority in the past and that staff were accustomed to having more
discretion in processing certain inquiries and communicating with SEC staff
outside of OIEA. She commented that OIEA staff need to understand that
management is accountable for the actions of everyone in OIEA and that OIEA
employees should also be held accountable for their actions.




28
   17 C.F.R. § 200.30-4(7); see also 17 C.F.R. § 240.24c-1 pertaining to access to nonpublic Commission
information.
Assessment of OIEA’s Functions                                                     September 30, 2011
Report No. 498
                                               Page 31
Communication Between OIEA Offices
Several OIEA staff members also expressed significant concern about the lack of
communication between offices within OIEA. We found that some staff in the
Office of Investor Assistance do not have an understanding of what staff in the
Office of Investor Education do, as reflected in the following comments:

   •   “We also have next to no idea of the priorities for the Education
       side. They do not communicate the projects the Education team is
       working on, who they are hiring, or what events they are attending
       or sponsoring. It's unfortunate because we are one office but we
       are not united and seem to be managed differently.”

   •   “Investor Assistance is generally not made aware of the activities of
       the Educational unit.”

   •   “I don't work on the Education side and the Assistance side is not
       informed of the various educational events that are being hosted.”

We also received comments from staff that OIEA is not a cohesive organization.
To address this issue, several survey respondents suggested having more
officewide meetings, as follows:

   •   “[H]ave more office meetings with the whole staff regarding issues
       of our office. The communication from management to staff is
       LACKING and often the staff is kept in the dark on important
       issues.”

   •   “Maybe [hold] monthly office meetings, also with the Education
       side.”

We asked OIEA management whether communication between offices within
OIEA is sufficient, and OIEA management responded that upper-level managers
within OIEA communicate with one another. The Director of OIEA said that
OIEA’s senior-level staff meeting is an opportunity for all parts of OIEA to discuss
overarching objectives and tasks. We also asked OIEA management whether
the Office of Investor Assistance informs the Office of Investor Education about
questions or issues that investors raise frequently. The Director of OIEA stated
that such coordination occurs. However, the comments we received indicate that
additional coordination is necessary.




Assessment of OIEA’s Functions                                    September 30, 2011
Report No. 498
                                     Page 32
   Recommendation 14:

   The Office of Investor Education and Advocacy (OIEA) should communicate
   matters related to OIEA operations, such as personnel changes and initiatives
   by offices within OIEA, to staff members at least once a month through
   officewide e-mails or an officewide meeting and ensure appropriate and
   necessary communication between the different offices within OIEA.

   Management Comments. OIEA concurred with this recommendation. See
   Appendix V for management’s full comments.

   OIG Analysis. We are pleased that OIEA concurred with this
   recommendation.

   Recommendation 15:

   The Office of Investor Education and Advocacy should continue to seek
   feedback from staff members on new and revised policies and procedures
   and other matters that would affect the office and should provide adequate
   time for staff to review and respond to feedback requests.

   Management Comments. OIEA concurred with this recommendation. See
   Appendix V for management’s full comments.

   OIG Analysis. We are pleased that OIEA concurred with this
   recommendation.

   Recommendation 16:

   The Office of Investor Education and Advocacy should participate in team-
   building exercises that are available at the Securities and Exchange
   Commission to improve communications and relations between management
   and staff.

   Management Comments. OIEA concurred with this recommendation. See
   Appendix V for management’s full comments.

   OIG Analysis. We are pleased that OIEA concurred with this
   recommendation.




Assessment of OIEA’s Functions                                 September 30, 2011
Report No. 498
                                   Page 33
                                                                            Appendix I


                                   Abbreviations

COSO                             Committee of Sponsoring Organizations of the
                                 Treadway Commission
Enforcement                      Division of Enforcement
FINRA                            Financial Industry Regulatory Authority
IRIS                             Investor Response Information System
OIEA                             Office of Investor Education and Advocacy
OIG                              Office of Inspector General
OMI                              Office of Market Intelligence
PAUSE                            Public Alert: Unregistered Soliciting Entities
RiskFin                          Division of Risk, Strategy, and Financial Innovation
SEC or Commission                U.S. Securities and Exchange Commission
TCR system                       Tips, Complaints, and Referrals system




Assessment of OIEA’s Functions                                         September 30, 2011
Report No. 498
                                          Page 34
                                                                                           Appendix II


                           Scope and Methodology

As part of the OIG annual audit plan, we conducted an assessment of OIEA’s
functions. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We determined that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

Scope. We conducted our fieldwork from April 2011 to August 2011. Our audit
focused on the functions of OIEA’s Office of Investor Assistance and whether it is
achieving its goal of providing timely responses to investor inquiries and
complaints. In addition, we reviewed investor alerts and bulletins primarily
prepared by OIEA’s Office of Chief Counsel and educational material for the
investing public prepared by OIEA’s Office of Investor Education. Our audit also
addressed responses to investor inquiries and complaints provided by investor
specialists in SEC regional offices. We reviewed documentation on OIEA’s
functions covering calendar years 2008, 2009, and 2010 and from January to
March 2011.

Methodology. To meet the objectives of assessing whether OIEA (1) addresses
investor inquiries accurately and timely and (2) processes complaints from
investors and/or refers them to other parties in a timely manner, we obtained and
reviewed the Commission’s regulation setting forth the responsibilities of the
Director of the Office of Consumer Affairs, OIEA’s predecessor, 29 and the Office
of Investor Assistance’s standard operating procedures, which describe internal
policies and procedures related to processing investor inquiries and complaints.
We developed and administered a survey to OIEA staff about its procedures for
responding to investors, and we reviewed and analyzed the results of the survey.
We also interviewed and submitted inquiries to OIEA management and to staff
and management from other Commission divisions and offices who have worked
with OIEA.

To achieve the objective of assessing whether OIEA’s current tracking system
and standard operating procedures for investor inquiries and complaints enable
the office to address inquiries and complaints in accordance with OIEA’s goal, we
reviewed a sample of investor inquiries and complaints. Additionally, we
reviewed records in OIEA’s tracking system and learned about functions of
OIEA’s tracking system. Some of the questions in the survey we administered to


29
   During our audit, we discussed with OIEA the need for updating this legislation. OIEA indicated that it
intends to pursue an update after certain organizational issues resulting from enactment of the Dodd-Frank
Wall Street Reform and Consumer Protection Act have been resolved.
Assessment of OIEA’s Functions                                                       September 30, 2011
Report No. 498
                                                Page 35
                                                                                      Appendix II


OIEA staff addressed issues related to OIEA’s standard operating procedures
and the functionality of OIEA’s tracking system.

To meet the objective of determining whether OIEA provides useful and relevant
educational material and events to the investing public, we conducted interviews
with other SEC divisions and offices that have worked with OIEA and external
organizations that have coordinated with OIEA, such as FINRA and the
Department of the Treasury. We also reviewed materials for certain educational
events held by OIEA for the investing public. An OIG staff member also attended
an OIEA educational event held at SEC headquarters. Additionally, our survey of
OIEA staff included questions about the usefulness and relevance of OIEA
educational materials provided to investors.

Finally, we identified areas in which improvement could be made, documenting
the results of our audit work and facilitating implementation of recommendations
noted in the report.

Internal Controls. The Internal Control—Integrated Framework, published by
the Committee of Sponsoring Organizations of the Treadway Commission
(COSO), provides a framework for organizations to design, implement, and
evaluate controls that facilitate compliance with federal laws, regulations, and
program compliance requirements. 30 For this audit, we based our assessment of
OIEA internal controls that were significant to the audit objectives on the COSO
framework, including control environment, control activities, information and
communication, and monitoring. Among the internal controls that we assessed
were OIEA’s controls related to processing priority inquiries, management’s
review of priority inquiries, OIEA’s policies and procedures in place to meet its
objectives, and OIEA’s internal communication process.

Judgmental Sampling. OIEA provided us with a list of all investor inquiries and
complaints for the period from January 1, 2008, to March 31, 2011. The universe
of investor inquiries and complaints received by SEC headquarters and regional
offices totaled 193,255. We judgmentally selected 150 inquiries and complaints
from this list for our sample, including inquiries and complaints received by SEC
regional offices as well as by SEC headquarters. In addition, our selection was
made to ensure that our sample included the various types of inquiries and
complaints processed by OIEA, including White House, Chairman’s, and
congressional correspondence; allegations of wrongdoing; and advance fee
fraud schemes. Because we did not use statistical sampling techniques, we did
not try to project the results of the investor inquiries and complaints reviewed in
our sample to the entire population.




30
  Committee of Sponsoring Organizations of the Treadway Commission, Internal Control—Integrated
Framework (1992).
Assessment of OIEA’s Functions                                                  September 30, 2011
Report No. 498
                                             Page 36
                                                                       Appendix II


Prior Audit Coverage. From 1990 through 2004, the OIG performed six audits
related to OIEA’s operations, as shown below.

   •   Management of Investor Complaints, Report No. 135, March 29,
       1990
   •   Investor Complaints and Inquiries, Report No. 202, September 29,
       1994
   •   Oversight of Self-Regulatory Organization Arbitration, Report No.
       289, August 24, 1999
   •   Investor and Small Business Town Meetings, Report No. 303,
       November 18, 1999
   •   Investor Education and Assistance Program, Report No. 288, April
       25, 2000
   •   Commission Responses to Investor Inquiries, Report No. 373,
       March 29, 2004

Although OIEA has implemented most of the prior reports’ recommendations, we
found two that have not been addressed.

The 1994 report recommended periodic review of the quality of responses to
letter and telephone complaints and to inquiries Commission-wide. OIEA stated
that this recommendation has not been fully addressed because OIEA does not
have the authority to monitor regional offices. OIEA added that although it does
not have the authority to monitor regional offices and it does not directly monitor
regional offices’ responses, it indirectly monitors them through its review of
responses to surveys sent to investors after they have received a response to an
inquiry or complaint. There have been times when the OIEA Assistant Director
has been able to identify survey comments related to a response prepared by a
regional office and has called the regional office to follow up.

The 2000 report recommended that OIEA develop and implement uniform
complaint and inquiry processing policies and procedures for OIEA and the field
offices and that it monitor information provided to investors for compliance with
OIEA policies and procedures. This recommendation has not been addressed.
According to OIEA management, it cannot monitor regional activities because
staff in regional offices report to regional directors, not to OIEA management.




Assessment of OIEA’s Functions                                    September 30, 2011
Report No. 498
                                     Page 37
                                                                      Appendix III


                                   Criteria
OIEA Standard Operating Procedures for the Investor Assistance Group.
(May 2011). Describes internal procedures that investor specialists and
attorneys in the Office of Investor Assistance should follow to process investor
inquiries and complaints. Adopted on May 5, 2011.

SEC Administrative Regulation 3-2, Tips, Complaints, and Referrals Intake
Policy. Prescribes the policies, procedures, and responsibilities for the SEC’s
intake program for Tips, Complaints, and Referrals. The policy applies to all SEC
staff, including fellows, interns, contractors, and anyone employed on a full-time
or part-time basis by the SEC. Adopted on March 10, 2010.

17 C.F.R. § 200.24a, Director of the Office of Consumer Affairs. Describes
the responsibilities assigned to OIEA’s predecessor organization, including
responsibilities to present seminars and instructional programs to educate
investors about securities markets and their rights as investors, to prepare and
distribute to the public materials describing the operations of the securities
markets and related matters, and to increase public knowledge of the functions of
the Commission. Also describes responsibilities to implement and administer a
nationwide system for resolving investor complaints received from individual
investors; to provide information to investors who inquire about individuals and
entities regulated by the Commission, as well as the operation of the securities
markets or the functions of the Commission; to advise the Commission and its
staff about problems frequently encountered by investors and possible solutions
to them; to transmit to other Commission offices and divisions information
provided by investors that concerns the responsibilities of these offices and
divisions; and to provide for greater consumer input to the Commission’s
rulemaking proceedings.

17 C.F.R. § 200.30-4(A)(7), Delegation of Authority to Director of Division of
Enforcement. Delegates authority to the Director of Enforcement to administer
the provisions of 17 C.F.R. § 240.24c-1, provided that access to nonpublic
information as defined in that section shall be provided only with the concurrence
of the head of the Commission division or office responsible for such information
or the files containing such information.

17 C.F.R. § 240.24c-1, Access to Nonpublic Information. Defines the term
“nonpublic information” as records, as defined in Section 24(a) of the Securities
Exchange Act of 1934, and other information in the Commission’s possession,
which are not available for public inspection and copying. Allows the
Commission, in its discretion, to provide nonpublic information to, among other
parties, a self-regulatory organization as defined in Section 3(a)(26) of the
Securities Exchange Act of 1934, such as FINRA, if assurances of confidentiality
that the Commission deems appropriate are provided.

Assessment of OIEA’s Functions                                   September 30, 2011
Report No. 498
                                     Page 38
                                                                        Appendix IV


                       List of Recommendations

Recommendation 1:

The Office of Investor Education and Advocacy (OIEA) should evaluate its review
process for responses to priority and other inquiries to determine whether
bottlenecks or inefficiencies are present and whether opportunities to streamline
the process and improve the timeliness of responses exist. Based on the results
of the evaluation, OIEA should make any appropriate changes to management
review responsibilities and revise its operating procedures accordingly.

Recommendation 2:

The Office of Investor Education and Advocacy (OIEA) should enhance the
training available to OIEA staff on the Investor Response Information System and
on processing investor inquiries and complaints. In particular, these
enhancements should address areas where confusion or errors are common or
persistent.

Recommendation 3:

The Office of Investor Education and Advocacy (OIEA) should make additional
training available to OIEA staff, including training provided by other divisions or
offices within the Securities and Exchange Commission, on new and emerging
topics in the securities industry to help ensure that information provided to
investors is accurate and current. OIEA management should regularly solicit
ideas for training topics from OIEA staff.

Recommendation 4:

The Office of Investor Education and Advocacy should take measures to ensure
that all staff, including staff with telephone duty responsibilities, have sufficient
time to attend periodic training.

Recommendation 5:

The Office of Investor Education and Advocacy (OIEA), in coordination with the
Office of Market Intelligence and the Division of Risk, Strategy, and Financial
Innovation, should continue to enhance the bridge between OIEA’s Investor
Response Information System and the Tips, Complaints, and Referrals system,
particularly the functions for transferring attachments and for ensuring the
complete transfer of information.



Assessment of OIEA’s Functions                                      September 30, 2011
Report No. 498
                                      Page 39
                                                                        Appendix IV


Recommendation 6:

The Office of Investor Education and Advocacy should provide regional office
investor specialists with ongoing training on investor assistance, including
information on resources available on the Securities and Exchange Commission
website, and on the Investor Response Information System.

Recommendation 7:

The Office of Investor Education and Advocacy (OIEA) should coordinate with
regional offices to establish a system for communicating regularly to help ensure
that investor specialists throughout the Securities and Exchange Commission are
providing consistent assistance to investors and that OIEA is aware of significant
issues in the regional offices.

Recommendation 8:

The Office of Investor Education and Advocacy should continue to consult with
regional offices to determine ways it could facilitate participation by the Securities
and Exchange Commission in local events held to educate investors and ways to
assist regional offices with other efforts related to educating investors.

Recommendation 9:

The Office of Investor Education and Advocacy (OIEA) should issue periodic
reminders to OIEA staff members that they are required to provide investors with
the option to complete a survey after every call.

Recommendation 10:

The Office of Investor Education and Advocacy should revise the questions in its
survey sent to investors who use the Securities and Exchange Commission’s
web form for inquiries and complaints by deleting questions applicable only to
telephone inquiries and complaints and adding questions specifically relevant to
inquiries and complaints submitted through the web form.

Recommendation 11:

The Office of Investor Education and Advocacy (OIEA), in coordination with the
Office of the Secretary, should move the Securities and Exchange Commission’s
(SEC) Toll-Free Investor Information Service telephone number to a more
prominent location on the SEC website, such as the home page.




Assessment of OIEA’s Functions                                      September 30, 2011
Report No. 498
                                      Page 40
                                                                    Appendix IV


Recommendation 12:

The Office of Investor Education and Advocacy should determine, in coordination
with the Office of the Secretary, whether there should be one Securities and
Exchange Commission information service telephone number instead of two on
the “Useful SEC Contact Information” list on the Securities and Exchange
Commission website.

Recommendation 13:

The Office of Investor Education and Advocacy should display the SEC Toll-Free
Investor Information Service telephone number on the home page of Investor.gov
for investors to make inquiries or complaints.

Recommendation 14:

The Office of Investor Education and Advocacy (OIEA) should communicate
matters related to OIEA operations, such as personnel changes and initiatives by
offices within OIEA, to staff members at least once a month through officewide e-
mails or an officewide meeting and ensure appropriate and necessary
communication between the different offices within OIEA.

Recommendation 15:

The Office of Investor Education and Advocacy should continue to seek feedback
from staff members on new and revised policies and procedures and other
matters that would affect the office and should provide adequate time for staff to
review and respond to feedback requests.

Recommendation 16:

The Office of Investor Education and Advocacy should participate in team-
building exercises that are available at the Securities and Exchange Commission
to improve communications and relations between management and staff.




Assessment of OIEA’s Functions                                  September 30, 2011
Report No. 498
                                    Page 41
                                                                                            Appendix V


                              Management Comments




                                    MANAGEMENT COMMENTS




                                            MEMORANDUM

To:       H. David Kotz, Inspector General
          Office of Inspector General


From: Lori J. Schock, Director         �J.l
          Office of Investor Educati    S;;- �nd Advocacy
Date:     September 27, 2011

Re:       Response to the Office of Inspector General"s Report. Assessment of the Office
          of Investor Education and Advocacy's Functions, Report No. 498




          Thank you for the opportunity to review and respond to the Office of Inspector
General's Draft Report No. 498 entitled Assessment of tile Office of Investor Education
and Advocacy's Functions (the "Report").            Please find below our response.

General Observations

          First, we appreciate your taking note of the numerous changes that OlEA has
                                                                       '
made during the audit period to improve the efficiency of its functions.  Among other
things, OlEA has employed new management for every office, put in place a new
complaint tracking system, and adopted a comprehensive Standard Operating
Procedures manual.          OlEA believes that these actions have contributed to greater
efficiency of OlEA operations and we will continue to enhance our operations. starting
with the implementation of the recommendations contained in the Report.

          Second, the Report includes many anonymous quotes taken from a survey o f
OlEA staff. W e caution that some of the substance o f those statements m a y n o t be
factually accurate.

          Third, the Report notes that OlEA has implemented all but two of the
recommendations from prior audits conducted by your office, both of which involve the
regional offices.     2   The two recommendations involve the periodic review of the quality
of investor responses handled by regional office staff and the development and
monitoring of uniform complaint and inquiry processing policies and procedures for
OlEA and the field offices.        OlEA believes that it has addressed both of these issues
within the confines of the structure of OlEA and the regional offices.              As the Report
recognizes, OlEA does not have authority over regional office investor assistance staff.


I   See Report. al 2.
'
    We nole Ihat the regionat offices collectively handle no more than 15% of the Commission·s annuat total
volume of investor inquiries and complaints that are recorded in OIEA·s Investor Response Information
System.




Assessment of OIEA’s Functions                                                        September 30, 2011
Report No. 498
                                                  Page 42
                                                                               Appendix V




Rather, the staff in the regional offices report to, and are supervised by, regional office
management.

OlEA Responses to the Report Recommendations

We concur with all of the Report's recommendations. Our specific response to each
recommendation follows.

Recommendation 1:

The Office of Investor Education and Advocacy (OlEA) should evaluate its review
process for responses to priority and other inquiries to determine whether boWenecks or
inefficiencies are present and whether opportunities to streamline the process and
improve the timeliness of responses exist. Based on the results of the evaluation, OlEA
should make any appropriate changes to management review responsibilities and
revise its operating procedures accordingly.

OlEA Response to Recommendation 1:

OlEA will evaluate its review process for responses to priority and other inquiries and
will make any appropriate changes to management review responsibilities. OlEA's
operating procedures will be revised to reflect any such changes.

Recommendation 2:

The Office of Investor Education and Advocacy (OlEA) should enhance the training
available to OlEA staff on the Investor Response Information System and on processing
investor inquiries and complaints. In particular, these enhancements should address
areas where confusion or errors are common or persistent.

OlEA Response to Recommendation 2:

OlEA will enhance the training available to OlEA staff on IRIS and on processing
investor inquiries and complaints in order to address areas where confusion or errors
are common or persistent.

Recommendation 3:

The Office of Investor Education and Advocacy (OlEA) should make additional training
available to OlEA staff, including training provided by other divisions or offices within the
Securities and Exchange Commission, on new and emerging topics in the securities
industry to help ensure that information provided to investors is accurate and current.
OlEA management should regularly solicit ideas for training topics from OlEA staff.




Assessment of OIEA’s Functions                                           September 30, 2011
Report No. 498
                                          Page 43
                                                                                               Appendix V




OlEA Response to Recommendation 3:

OlEA has and will continue to make additional training available to OlEA staff members
on new and emerging topics In the securities industry to help ensure that information
provided to investors Is accurate and current. 3

Recommendation 4:

The Office of Investor Education and Advocacy should take measures to ensure all
staff . including staff with phone duty responsibilities. have sufficient time to attend
periodic training.

OlEA Response to Recommendation 4:

OlEA management is not aware of any investor assistance staff being denied the
opportunity to attend a training session because of telephone duty. OlEA will take
measures to ensure that all staff. including staff with telephone duty. have sufficient time
to attend periodic training.

Recommendation 5:

The Office of Investor Education and Advocacy (OlEA). in coordination with the Office of
Market Intelligence and the Division of Risk, Strategy. and FinanCial Innovation, should
continue to enhance the bridge between OlEA's Investor Response Information System
and the Tips. Complaints. and Referral system. particularly the functions for transferring
attachments and for ensuring the complete transfer of information.

OlEA Response to Recommendation 5:

OlEA agrees with the recommendation that the automated "bridge" between IRIS and
the Tips, Complaints and Referral (TCR) system be enhanced. particularly the functions
for transferring attachments and ensuring the complete transfer of information. As you
are aware. the TCR System is governed by an Executive Steering Committee (ESC).
The ESC is well aware of the Issues related to the bridge and considers enhancing the
bridge as a high priority for the next release of the TCR System planned for 2012.

Recommendation 6:

The Office of Investor Education and Advocacy should provide regional office investor
specialists with ongOing training on investor assistance. including information on



l As previously provided to audit staff, Included as Appendix A to these Management Comments is a list
of training events offered to, and attended by, OlEA staff during the audit period. OlEA also actively
encourages Its staff to participate in training eKefClses conducted by other offices and diviSions within the
Commission.




 Assessment of OIEA’s Functions                                                          September 30, 2011
 Report No. 498
                                                   Page 44
                                                                               Appendix V




resources available on the Securities and Exchange Commission website, and on the
Investor Response Information System.

OlEA Response to Recommendation 8:

In light of statements in the Report that investor assistance specialists in the regional
offices indicated that previously provided webinar and telephone training was         .
insufficient, OlEA will schedule in-person IRIS training at headquarters and provide
related information on the Commission's website. OlEA notes that attendance at such
training will be subject to regional office management's budgetary and other concerns.

Recommendation 7:

The Office of Investor Education and Advocacy (OlEA) should coordinate with regional
offices to establish a system for communicating regularly to help ensure that investor
specialists throughout the Commission are provided consistent assistance to investors
and that OlEA is aware of significant issues in the regional offices.

OEIA Respon_ to Recommendation 7:

OlEA will continue to communicate with regional office investor assistance staff by
providing them with information regarding aSSistance to investors. OlEA will request
that the investor assistance specialists in the regional offices inform OlEA of significant
issues that they encounter in order to promote the consistency of assistance provided to
investors.

Recommendation 8:

The Office of Investor Education and Advocacy should consult with regional offices to
determine ways it could facilitate participation by the Securities and Exchange
Commission in local events held to educate investors and ways to assist regionai offices
with other efforts related to educating investors.

Response to Recommendation 8:

OlEA's Office of Investor Education will continue to conduct quarterly conference calls
with the regional offices regarding education events, including coordination of efforts to
educate investors.

Recommendation 9:

The Office of Investor Education and Advocacy (OlEA) should issue periodic reminders
to OlEA staff members that they are required to provide investors with the option to
complete a survey after every call.




Assessment of OIEA’s Functions                                           September 30, 2011
Report No. 498
                                          Page 45
                                                                                  Appendix V




OlEA Response to Recommendation 9:

?IEA has revlse� the language in its interactive voice response system to clarify for
Investors contacting us by telephone that they will be asked to participate in a survey at
the conclusion of their discussion with our investor assistance staff.   OlEA has also
updated Its Standard Operating Procedures, with staff input, to specify more clearly the
requirements for notifying a caller that he or she will be transferred into an automated
survey at the conclusion of the call and for actually transferring the caller into the
survey.

Recommendation 10:

The Off ice of Investor Education and Advocacy should revise the questions in its survey
sent to investors who   use   the Securities and Exchange Commission's webform to
submit complaints and inquiries by deleting questions applicable only to telephone
contacts and adding questions specificany relevant to complaints and inquiries
submitted through the webform.

OlEA Response to Recommendation 10:

The current survey soliciting investor feedback regarding our customer service asks
investors to complete the survey on the basis of their "most recent phone conversation
or interaction" with OlEA. The survey was designed to include telephone conversations
as well as online contacts because in some instances, an initial written inquiry to OlEA
will be followed up by a telephonic discussion with the investor.    Nonetheless, to avoid
confusion, OlEA will revise the survey for investors who submit webforms by deleting
questions applicable to telephone conversations and, as appropriate, will add questions
specificaHy relevant to inquiries or complaints submitted through the webform.

Recommendation 11:

The Office of Investor Education and Advocacy (OlEA), in coordination with the Office of
the Secretary, should move the Securities and Exchange Commission's (SEC) Toll-Free
Investor Information Service telephone number to a more prominent location on the
SEC's website, such as the home page.

OlEA Response to Recommendation 11:

OlEA has coordinated with the Office of the Secretary to have the Securities and
Exchange Commission's (SEC) Toll-Free Investor Information Service telephone
number moved to a more prominent location on the SEC's website.




Assessment of OIEA’s Functions                                              September 30, 2011
Report No. 498
                                           Page 46
                                                                           Appendix V




Recommendation 12:

The Office of Investor Education and Advocacy should determine, in coordination with
the Office of the Secretary, whether there should be one Securities and Exchange
Commission information service telephone number instead of two on the ·Useful SEC
Contact Information" list on the Securities and Exchange Commission's website.

OlEA Response to Recommendation 12:

OlEA has determined, in coordination with the Office of the Secretary, that there should
be one Securities and Exchange Commission information service telephone number
instead of two on the Commission's website and the Office of the Secretary has
implemented this change.

Recommendation 13:

  The Office of Investor Education and Advocacy should display the SEC Toll-Free
  Investor Information Service telephone number on the home page of Investor.gov for
. investors to make inquiries or complaints.

OlEA Response to Recommendation 13:

OlEA will revise Investor.gov in order to display the SEC Toll-Free Investor Information
Service telephone number on the home page.

Recommendation 14:

The Office of Investor Education and Advocacy (OlEA) should communicate matters
related to OlEA operations, such as personnel changes and initiatives by offices within
OlEA, to staff members at least once a month through office wide e-mails or an office
wide meeting and ensure appropriate and necessary communication between the
different Offices within OlEA.

OlEA Response to Recommendation 14:

OlEA will communicate matters related to OlEA operations to staff members at least
once a month through office wide e-malls to ensure appropriate and necessary
communication between the different Offices within OlEA.

Recommendation 15:

The Office of Investor Education and Advocacy should continue to seek feedback from
staff members on new and revised policies and procedures and other matters that
would affect the office and should provide adequate time for staff members to review
and respond to feedback requests.




 Assessment of OIEA’s Functions                                       September 30, 2011
 Report No. 498
                                       Page 47
                                                                              Appendix V




OlEA Response to Recommendation 15:

Subject to and consistent with management's rights as outlined in the Collective
Bargaining Agreement between the Securities and Exchange Commission and the
National Treasury Employees Union, OlEA will continue to seek feedback from staff
members on new and revised policies and procedures and other matters that would
affect the off ice and will provide adequate time for staff members to review and respond
to feedback requests.

Recommendation 16:

The Office of Investor Education and Advocacy should participate in team-building
exercises that are available at the Securities and Exchange Commission to improve
communications and relations between management and staff.

OlEA Respon_ to Recommendation 16:

OlEA has contacted the Commission's Work Life Programs Officer and has scheduled
two training sessions in order to improve communications and relations between
management and staff.     Specifically, OlEA has scheduled a training session entitled
"Building Better Relationships through Effective Communication" for October 2011 and
a training session entitled "Non-Verbal Communication:   Understanding, Identifying and
Using Body Language" for November 2011.




 Assessment of OIEA’s Functions                                          September 30, 2011
 Report No. 498
                                          Page 48
                                                                     Appendix VI


      OIG Response to Management’s Comments

The OIG is pleased that the OIEA has concurred with all 16 of the report’s
recommendations. We are also encouraged that OIEA has indicated that it
intends to take prompt action to address the areas of concern that we identified
in the audit.

We believe that fully implementing all of these important recommendations will
significantly enhance the efficiency and effectiveness of OIEA in connection with
its important work of gathering, processing, and responding to inquiries and
complaints from the investing public.




Assessment of OIEA’s Functions                                   September 30, 2011
Report No. 498
                                    Page 49
                     Audit Requests and Ideas

The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Request/Idea)
100 F Street, N.E.
Washington D.C. 20549-2736

Telephone: 202-551-6061
Fax:       202-772-9265
E-mail:     oig@sec.gov




      Hotline
      To report fraud, waste, abuse, and mismanagement at the SEC,
      contact the Office of Inspector General at

      Telephone: 877.442.0854

      Web-Based Hotline Complaint Form:
      www.reportlineweb.com/sec_oig
